Office Of inspectOr General
U.S. Department of tranSportation




       semiannual repOrt tO cOnGress
           April 1 – September 30, 2011
                                                                             Table of Contents

                  From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii

                  Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

                             Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

                             In Focus: Ensuring Satellite-Based Navigation in the National

                                 Airspace System is Safe and Secure  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13

                             Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15

                             In Focus: Ensuring the Continued Safety of Nation’s Highways

                                 Under NAFTA’s Cross-Border Pilot Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

                             Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31

                             Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

                             Aquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

                             Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42


                  Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

                  Work Planned and in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

                             Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

                             Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55

                             Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58

                             Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61

                             Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64


                  Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67

                             Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67

                             Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69

                             Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69

                             OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 70

                             OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  .  . 71

                             OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 72

                             Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73

                             Office of Inspector General Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74

                             Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 85

                             Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87

                             Statistical Outcomes .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87

                             Profile of All Pending Investigations by CaseType, as of September 30, 2011  .  .  .  .  . 89


                  Peer Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 91

                  Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93

                  Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 96





14039_ i-ii_Table of Contents.indd 1                                                                                                                                                                                       11/21/11 8:20 AM
14039_ i-ii_Table of Contents.indd 2   11/21/11 8:20 AM
                                                    From the Inspector General


                          I am pleased to present the Department of Transportation (DOT), Office of Inspector
                          General Semiannual Report to Congress for the second half of fiscal year 2011. Our audit
                          and investigative work supports the Department’s strategic goals of safety; reduced
                          congestion; global connectivity; environmental stewardship; security, preparedness,
                          and response; and organizational excellence. Over the past 6 months, we issued 109
                          reports with a total of 318 recommendations, including financial recommendations
                          totaling over $73.5 million. Our investigative work resulted in 41 indictments, 44
                          convictions, and a total of more than $46 million in fines, restitutions, and recoveries.
                          Our aviation work continued to focus on the Federal Aviation Administration’s (FAA)
                          efforts to enhance air traffic capacity through the Next Generation Air Transportation
                          System (NextGen). Of particular concern are cost, schedule, and performance risks
                          in implementing key NextGen technologies, including the System Wide Information
                          Management program—a system that will form the basis for a secure network to
                          efficiently manage and share information among NextGen’s air traffic systems. We
                          also reported on FAA’s efforts to manage staffing and operations challenges with its
                          controller workforce, and to ensure safe skies as its responsibilities shift from operating
                          its own air traffic control systems to overseeing contractor-owned and managed
                          systems. Our investigations exposed fraudulent activities related to the sale of aircraft
                          parts, pilot medical certification, and disadvantage business enterprise funds. Our
                          aviation-related investigations led to the sentencing of nine individuals in six cases.
                          Our highway and transit audits highlighted the ongoing challenges the Federal Motor
                          Carrier Safety Administration faces in complying with certain provisions of the North
                          American Free Trade Agreement, and countering fraud in its Commercial Driver’s
                          License program. Our highway and transit investigations uncovered numerous
                          greed-based schemes to defraud the Federal Government and States, including one
                          involving the issuance of commercial driver’s licenses to unqualified applicants, as
                          well as schemes involving disadvantaged business enterprise fraud, price-fixing and
                          bid-rigging, false claims, wire fraud, and bribes.
                          Our rail audits focused on the Federal Railroad Administration’s efforts to meet its
                          responsibilities outlined in the Passenger Rail Investment and Improvement Act,
                          improve and expand intercity passenger rail, and ensure that investments in the
                          Government’s $10 billion High-Speed Intercity Passenger Rail grant program are
                          prudent. We also continued our vigilant oversight of Amtrak’s operational reforms and
                          long-term capital planning, and its use of American Recovery and Reinvestment Act
                          of 2009 (ARRA) funding to more fully use available capacity at its heavy maintenance
                          facilities. Our maritime investigations uncovered violations of the Refuse Act and the
                          Clean Water Act and resulted in the sentencing of violators who failed to comply with
                          Federal, State, and local environmental laws and regulations.
                          Our audits of the Department’s information technology portfolio—one of the largest
                          among Federal civilian agencies—continue to identify significant vulnerabilities,
                          particularly in the area of cybersecurity. A key concern is identifying and mitigating


                                                     Semiannual Report to Congress      iii


14039_ iii-iv_From the Inspector General.indd 3                                                                         11/21/11 8:20 AM
                          security risks for the Automatic Dependent Surveillance Broadcast system—an
                          important component of NextGen.
                          Finally, we continued to pursue opportunities to ensure accountability, efficiency, and
                          transparency over DOT’s acquisitions and procurements, including those funded
                          under ARRA. A lack of policies, controls, reliable data, and adequate training have
                          limited the Department’s ability to ensure that the $5.8 billion spent on contracts
                          for goods and services in fiscal year 2010 were used effectively and safeguarded
                          from fraud and abuse. As of the end of September, we have 15 ongoing ARRA
                          audits, and 62 open ARRA investigations—47 of which have been accepted for
                          review for prosecution by the Department of Justice. We expect our acquisition
                          and procurement audits to exponentially expand as the Federal budget becomes
                          increasingly constrained.
                          Our work reflects a strong commitment to providing in-depth analyses of important
                          transportation issues to serve and inform Congress, the Department, and the
                          public. I commend and thank our hard-working staff for their outstanding efforts
                          and dedication to our critical mission. I would also like to thank Secretary LaHood
                          for his leadership and staunch efforts in these challenging times. I look forward to
                          continuing to work with the Secretary, his team, and modal administrators to provide
                          Americans with a safe transportation system that meets the national objectives of
                          general welfare, economic growth and stability, and security.




                          Calvin L. Scovel III




                                                       From the Inspector General      iv


14039_ iii-iv_From the Inspector General.indd 4                                                                     11/21/11 8:20 AM
                                                            Aviation and Special Programs


        Audits                                                       to pilot, controller, and inspector workforces and
                                                                     to make critical, long-delayed decisions about
        May 12, 2011                                                 the overall design of NextGen—decisions that
                                                                     will impact the program’s long-term costs and
        FAA’s Fiscal Year 2012 Budget Request:                       benefits. At the same time, FAA requires better
        Key Issues Facing the Agency                                 controls to instill accountability and better man­
                                                                     age airport infrastructure contracts and grants.
        Testimony before the Senate Appropriations
                                                                     FAA’s fiscal year 2012 budget request reflects the
        Subcommittee on Transportation, Housing, and
                                                                     Agency’s plans to improve its NextGen efforts,
        Urban Development, and Related Agencies on
                                                                     but it also reveals the difficulties FAA has had
        FAA’s fiscal year 2012 budget request
                                                                     in controlling its costs and schedules. Effectively
                                                                     balancing Agency priorities now is essential to
        FAA faces the formidable challenge of safely op­
                                                                     deliver a future system to travelers and airspace
        erating and maintaining an increasingly strained
                                                                     users that provides a return on taxpayers’ invest­
        National Airspace System (NAS) while develop­
                                                                     ment, functions safely and efficiently, and adapts
        ing the next generation of air traffic control sys­
                                                                     to growing capacity needs and industry changes
        tem—all within a severe budgetary environment.
                                                                     for many years to come.
        The Inspector General testified that FAA will re­
        quire resources to address safety issues related


                                                 Semiannual Report to Congress      1


14039_001-044_Audits and Investigations.indd 1                                                                      11/21/11 8:43 AM
        May 24, 2011                                                  and expected innovations to improve the qual­
                                                                      ity and timeliness of controller training have not
        Further Steps Are Needed To Address
                                                                      been realized.
        Challenges With the Management
        and Operations of FAA’s Controller                            June 9, 2011
        Workforce                                                     FAA Needs To Strengthen Controls
        Testimony before the Senate Commerce,                         Over the 2009 FAA/NATCA Collective
        Science, and Transportation Subcommittee on                   Bargaining Agreement
        Aviation Operations, Safety, and Security
                                                                      Requested by the Chairman of the House
                                                                      Committee on Transportation and Infrastructure
        Reports of on-duty air traffic controllers falling
        asleep and several high-profile operational er­
                                                                      The 2009 collective bargaining agreement
        rors heightened concerns about FAA’s oversight
                                                                      (CBA) between FAA and the National Air Traffic
        and management of air traffic operations. These
                                                                      Controllers Association (NATCA) was the first
        incidents are occurring at a time when veteran
                                                                      successfully negotiated CBA since a 5-year
        controllers are retiring at unprecedented rates,
                                                                      agreement was ratified in 1998, which was as­
        requiring comprehensive training and placement
                                                                      sociated with significant cost overruns. FAA
        of new controllers.
                                                                      estimates that the 2009 agreement will cost
                                                                      $669 million more than extending the controller
        The Inspector General testified that while FAA
                                                                      work rules that were in place prior to the 2009
        has acted quickly to address many recent in­
                                                                      agreement.
        cidents, it has yet to fully identify and mitigate
        risks related to the management and operations
                                                                      We found that while FAA’s methodology for
        of its controller workforce. FAA statistics show a
                                                                      developing its estimate appears reasonable, it
        recent significant increase in operational errors;
                                                                      includes several assumptions that may increase
        however, FAA has not yet determined whether the
                                                                      total costs, such as the rate at which veteran
        increase is the result of better reporting systems
                                                                      controllers retire. Some provisions in the 2009
        or due to trends that require mitigating actions,
                                                                      CBA could also escalate costs beyond FAA’s
        such as controller fatigue. Our work over the past
                                                                      estimate, including negotiated memoranda of
        decade and that of the National Transportation
                                                                      understanding (MOU). While FAA established
        Safety Board (NTSB) have identified a series of
                                                                      controls in 2003 to prevent additional costs
        factors that create the risk for controller fatigue,
                                                                      with MOUs, we found that those controls are
        but FAA has not yet fully implemented recom­
                                                                      insufficient and that Agency personnel do not
        mendations for mitigating this risk. Our work
                                                                      consistently adhere to them.
        also shows that FAA’s process for placing new
        controllers does not adequately consider knowl­
        edge, skills, and abilities when assigning them,              We made four recommendations to help FAA
                                                                      ensure its internal control policies are sufficient


                                                 Aviation and Special Programs      2


14039_001-044_Audits and Investigations.indd 2                                                                       11/21/11 8:43 AM
        to prevent cost escalations. FAA concurred with              because FAA has not established clear lines
        or met the intent of our recommendations, and                of accountability for overseeing how SWIM is
        we consider them resolved pending completion                 developed and managed. Rather than pursue an
        of planned actions.                                          overarching SWIM infrastructure, FAA delegated
                                                                     significant design and implementation respon­
        June 15, 2011                                                sibility and funding to the seven NAS program
        FAA’s Approach to SWIM Has Led to                            offices, leaving the SWIM Program Office with
                                                                     no authority over SWIM costs, schedules, and
        Cost and Schedule Uncertainty and                            requirements. Because the SWIM Program
        No Clear Path for Achieving NextGen                          Office is not filling the typical role of setting
                                                                     long-term programmatic priorities, it will be dif­
        Goals
                                                                     ficult for FAA to develop an end-state transition
        Self-initiated
                                                                     strategy for SWIM and ensure that SWIM aligns
                                                                     with NextGen goals such as reducing aviation
        FAA’s successful transition to NextGen depends               costs. Without clearly defined requirements and
        on developing and implementing the System                    program priorities, the true cost and timeline to
        Wide Information Management (SWIM) program.                  deploy SWIM and the realization of expected
        FAA plans to spend about $284 million through                benefits is unknown.
        2015 to implement the first of three stages of
        SWIM. As envisioned, SWIM will form the basis
                                                                     FAA concurred with all six of our recommenda­
        for a secure network that manages and shares
                                                                     tions for improving SWIM management and
        information more efficiently among all air traffic
                                                                     reducing risks, including providing the SWIM
        systems that will comprise NextGen. Key ben­
                                                                     Program Office with the proper authority to
        efits expected from SWIM are streamlined data
                                                                     ensure SWIM capabilities will be implemented
        communications and real-time information that
                                                                     within the established schedule.
        will improve air traffic management, enhance
        airspace capacity, reduce flight delays, and de­             June 29, 2011
        crease costs for FAA and aviation users.
                                                                     FAA Needs To Strengthen Its Risk
        Although FAA is still in the early stages of devel­          Assessment and Oversight Approach
        oping SWIM, costs for the program’s first stage              for Organization Designation
        have already increased by more than $100 mil­
        lion, and targeted completion has been delayed               Authorization and Risk-Based
        2 years. Cost increases and schedule delays                  Resource Targeting Programs
        are largely the result of undefined requirements             Requested by Representative Daniel Lipinski
        among the seven programs that will serve as
        SWIM platforms. SWIM likely remains at risk                  Public law allows FAA to delegate certain aviation
        of further cost increases and schedule delays                functions, such as approving aircraft designs,



                                                 Semiannual Report to Congress      3


14039_001-044_Audits and Investigations.indd 3                                                                     11/21/11 8:43 AM
        to private individuals or organizations. While                August 4, 2011
        FAA established the Organization Designation
                                                                      FAA Oversight Is Key for Contractor-
        Authority (ODA) program to standardize its
        oversight of these designees, FAA significantly               Owned Air Traffic Control Systems That
        limited its role in approving individuals who per­            Are Not Certified
        form work on FAA’s behalf by delegating this ap­              Requested by the former Chairmen of the House
        proval to private companies. Moreover, there are              Committee on Transportation and Infrastructure
        vulnerabilities in FAA’s program oversight similar            and its Subcommittee on Aviation
        to those used for past forms of organizational
        delegations, and FAA has not ensured engineers
                                                                      FAA’s certification process is an integral quality
        are adequately trained to perform their expanded
                                                                      control method to ensure that air traffic control
        enforcement responsibilities under ODA. At the
                                                                      systems, subsystems, and services are safe and
        same time, FAA’s Risk Based Resource Targeting
                                                                      function as intended. In 2007, FAA revised its
        (RBRT) system—which is intended to assist
                                                                      certification policy to require Agency certification
        FAA in evaluating risks in aircraft certification
                                                                      for FAA-owned, but not contractor-owned, sys­
        projects—has not been effective for measuring
                                                                      tems. To oversee the contractor-owned ground
        risk and targeting FAA’s oversight because it
                                                                      infrastructure of the Automatic Dependent
        relies on subjective input from engineers, does
                                                                      Surveillance-Broadcast (ADS-B) system, FAA
        not contain detailed data, and has experienced
                                                                      is using an automated monitoring tool in lieu of
        repeated technical difficulties.
                                                                      certification. While it is too early to fully assess
                                                                      the impact of FAA’s revised certification policy,
        We made six recommendations to FAA to im­                     FAA’s oversight approach to ADS-B presents
        prove its oversight of ODA programs and the                   risks, particularly in regards to limited data
        RBRT system. FAA concurred or partially con­                  analysis resources and ensuring network reliabil­
        curred with all of our recommendations, and its               ity. As FAA shifts from operating its own systems
        response meets the intent of most of them. Three              to overseeing contractor-owned and -managed
        recommendations remain unresolved pending                     systems, the Agency is vulnerable to losing long-
        further action by FAA.                                        term visibility into NAS system performance.
                                                                      Further, FAA does not yet have sufficient logistics
                                                                      personnel for effective contractor oversight.

                                                                      We made several recommendations to FAA to
                                                                      enhance its oversight of these systems. FAA
                                                                      concurred with all of our recommendations, but
                                                                      we have requested clarification on the Agency’s
                                                                      response to two of them.




                                                 Aviation and Special Programs      4


14039_001-044_Audits and Investigations.indd 4                                                                        11/21/11 8:43 AM
        September 12, 2011                                           for the remaining two recommendations regard­
                                                                     ing the collection and analysis of pilot domicile
        FAA and Industry Are Taking Action
                                                                     and commuting data.
        To Address Pilot Fatigue, but More
        Information on Pilot Commuting Is                            September 29, 2011
        Needed                                                       More Rigorous Oversight Is Needed
        Requested by the Chairmen and Ranking                        To Ensure Venice Municipal Airport
        Members of the Senate Committee on Commerce,                 Land Sales and Leases Are Used
        Science, and Transportation; its Subcommittee
        on Aviation Operations, Safety, and Security; the            Appropriately
        former Chairman of the House Subcommittee on                 Requested by former Senator George LeMieux
        Aviation; and Representatives Louise Slaughter
        and Brian Higgins                                            In fiscal year 2010, FAA provided airports na­
                                                                     tionwide over $3.4 billion in Airport Improvement
        FAA has taken much needed steps to update                    Program (AIP) funding. Federal law requires AIP
        flight, duty, and rest requirements for pilots,              fund recipients to ensure airports are as self-sus­
        including publishing a Notice of Proposed                    taining as possible and to use airport revenues
        Rulemaking (NPRM) with revised regulations.                  only for airport capital and operating costs. FAA,
        However, FAA’s NPRM has encountered sig­                     in turn, is responsible for effective oversight of
        nificant opposition from the aviation industry,              airport revenue. Over the last 30 years, FAA, our
        posing a challenge for the Agency to implement.              office, and the Government Accountability Office
        Additionally, the NPRM does not require carriers             (GAO) have identified serious airport revenue use
        to identify pilots who commute, or to have poli­             problems at Venice (Florida) Municipal Airport.
        cies addressing pilot domicile issues that impact
        commuting and fatigue. Further, FAA inspectors               Our audit found that FAA oversight continues
        do not fully review carriers’ self-disclosure data           to fall short of ensuring the airport’s compliance
        in instances of non-compliance with flight crew              with Federal law. For example, in 1998 and 2004,
        rest requirements, and there are areas where                 FAA permitted the City of Venice—as both the
        carriers can improve internal oversight controls             airport sponsor and the provider of municipal
        to ensure compliance with current Federal flight,            functions—to transfer airport properties to itself
        duty, and rest requirements.                                 at prices below fair market value, despite agency
                                                                     policy requiring airport property be sold at fair
        We made four recommendations to FAA to im­                   market value. FAA’s oversight also did not pre­
        prove awareness of pilot commuting and fatigue.              vent the City from misallocating lease revenue
        FAA concurred with or met the intent of two of               and parking lot improvement costs. Specifically,
        our recommendations regarding self-disclosure                over a 21-year period, the City diverted more than
        data, but we are requesting a revised response               $1.5 million in airport lease revenue to maintain a



                                                 Semiannual Report to Congress      5


14039_001-044_Audits and Investigations.indd 5                                                                      11/21/11 8:43 AM
        municipal fishing pier and indirectly charged the             leading edge” and refinished the blade’s paint. To
        airport too much for parking lot improvements.                conceal maintenance problems with the blades,
        Had FAA required the City to establish an equi­               Lauterbach signed off on the service record en­
        table means of allocating airport property sales              try using an Airframe and Powerplant certificate
        and leases and parking lot improvement costs,                 number issued to him by FAA. The rotor blades
        as much as $6.7 million in lost revenue could                 were purchased from Lauterbach for $42,000 in
        have been used to improve the airport’s self-                 2005 and installed on a Bell helicopter owned
        sufficiency or cover 3 years of airport operating             by a North Carolina man for use in a helicopter
        expenses.                                                     sightseeing business. When the blades could
                                                                      not be balanced properly, a secondary inspec­
        We made five recommendations to improve                       tion of the blades revealed their true condition.
        FAA’s oversight of airport property sales and                 The customer returned the blades to Lauterbach
        the Venice airport’s self-sustainability. FAA                 for a refund before they were used in flight.
        concurred or partially concurred with all our rec­
        ommendations, but we are requesting that the                  Lauterbach was sentenced to serve 5 years pro­
        Agency reconsider its position for three of them,             bation and ordered to pay $5,651 in restitution
        particularly its interpretation of FAA’s Revenue              and a $100 special assessment fine. Lauterbach
        Use Policy.                                                   was also ordered to forfeit $21,000, an amount
                                                                      determined traceable to the offense.

        Investigations                                                This investigation was conducted with assis­
                                                                      tance from FAA’s Dallas Fight Standards District
        September 8, 2011
                                                                      Office.
        Aviation Mechanic Convicted for Role
                                                                      May 25, 2011
        in Fraudulent Parts Repairs
                                                                      Pennsylvania Certified Flight Instructor
	
        Dennis R. Lauterbach, a former FAA-licensed
        mechanic, was sentenced in U.S. District Court,               Sentenced for Falsifying Medical
        Dallas, Texas, for fraudulently altering the his­             Certificate
        torical service record for main rotor helicopter
        blades he sold in 2005.                                       Joseph Konrad, a commercial pilot and FAA-
                                                                      certified flight instructor, was sentenced in U.S.
        Lauterbach was previously convicted of ob­                    District Court, Philadelphia, Pennsylvania, to
        scuring the service records that revealed the                 6 months home confinement, followed by 30
        blades had been rejected for skin debonding                   months of probation and $2,600 in fines, for fal­
        and recommended that they be scrapped. He                     sifying his FAA flight medical certificate. Konrad
        concealed this information by making an entry                 admitted that he intentionally failed to disclose a
        in the service record that he “profiled the spar              disqualifying medical condition to FAA. Konrad



                                                 Aviation and Special Programs      6


14039_001-044_Audits and Investigations.indd 6                                                                       11/21/11 8:43 AM
        was also prohibited from applying for a pilot                Dickerson is the sole proprietor of Woodchuck’s
        license for a period of 3 years.                             Building and Home Center, a certified DBE.
                                                                     Degrazia and Hebert are partial owners of U.S.
        In 2007, 2008, and 2009, Konrad intentionally                Window and Door Construction, Inc., a com­
        failed to disclose his disqualifying medical condi­          pany that was awarded FAA-funded Residential
        tion on his FAA flight medical application. Konrad           Soundproofing Improvement Program contracts
        worked as a flight instructor in Philadelphia and            by the Massachusetts Port Authority (Massport).
        Southern New Jersey and provided more than                   For approximately 10 years, Degrazia and
        100 training sessions while operating with false             Hebert indicated that Dickerson, doing business
        medical certificates. Konrad admitted that he did            as Woodchuck’s, was a supplier of windows and
        not disclose his disqualifying medical condition,            doors and eligible towards its DBE goal on each
        fearing FAA would revoke his commercial pilot                contract when all parties knew that Dickerson
        and flight instructor licenses.                              was merely a pass-through and would not actu­
                                                                     ally supply the materials, incur any expenses, or
        This investigation was conducted jointly with                perform any work. The defendants submitted
        the Department of Homeland Security (DHS),                   false documents to Massport with Dickerson’s
        Immigration and Customs Enforcement (ICE),                   concurrence to conceal Dickerson’s lack of ac­
        and the Federal Bureau of Investigation (FBI).               tivity and to give the appearance that the DBE
                                                                     goal had been met. Dickerson was paid a fee of
        May 31, 2011                                                 up to 4 percent of the material costs for his role
                                                                     in the conspiracy.
        Three Massachusetts Men Indicted for
        DBE Fraud on FAA-Funded Residential                          Note: Indictments, informations, and crimi­
        Soundproofing Contracts                                      nal complaints are only accusations by the
                                                                     Government. All defendants are presumed in­
        Robert Dickerson, Dennis Degrazia, and David                 nocent unless and until proven guilty.
        Hebert were indicted in U.S. District Court,
        Boston, Massachusetts, for conspiring to im­                 June 7, 2011
        pede, impair, and obstruct DOT’s Disadvantaged
                                                                     Texas Man Sentenced for Making a
        Business Enterprise (DBE) program. The pro­
        gram requires that DBEs receive approximately                False Statement to FAA
        10 percent of DOT funding provided to state
                                                                     Darryl G. Reynolds was sentenced in U.S. District
        and local governments, ensuring that DBEs get
                                                                     Court, Tyler, Texas, for making a false statement
        a share of Federally funded highway and transit
                                                                     to FAA to obtain an Airworthiness Certificate for
        projects.
                                                                     an aircraft that Reynolds obtained through the
                                                                     General Services Administration’s (GSA) Federal
                                                                     Surplus Property Program.



                                                 Semiannual Report to Congress      7


14039_001-044_Audits and Investigations.indd 7                                                                     11/21/11 8:43 AM
        Reynolds operated the Texas Firebirds Volunteer               June 17, 2011
        Fire Department (TFVFD), a non-profit corpora­
                                                                      “Barefoot Bandit” Pleads Guilty to
        tion located in Van Zandt County, Texas, that
        provides aerial firefighting support. On behalf               Multi-State Crime Spree
        of TFVFD, Reynolds obtained surplus aircraft
                                                                      Colton Harris-Moore, also known as the Barefoot
        through the Federal Surplus Property Program.
                                                                      Bandit, pleaded guilty in U.S. District Court,
        Reynolds obtained one aircraft—a twin-engine
                                                                      Seattle, Washington, to bank burglary, interstate
        airplane previously owned and operated by the
                                                                      transportation of a stolen aircraft, interstate and
        U.S. Forest Service—without an airworthiness
                                                                      foreign transportation of a stolen firearm, being
        certificate because the U.S Forest Service sur­
                                                                      a fugitive in possession of a firearm, piloting an
        rendered it to FAA when the aircraft was deter­
                                                                      aircraft without a valid airman’s certificate, and
        mined to have reached the end of its useful life.
                                                                      interstate transportation of a stolen vessel.
        In applying for a new airworthiness certificate
        through FAA, Reynolds asserted that the original
        certificate had been lost, although he knew the               In 2008, Harris-Moore began a crime spree that
        certificate had been surrendered.                             involved the theft of aircraft, boats, vehicles, and
                                                                      firearms. On more than one occasion, Harris-
                                                                      Moore piloted a stolen aircraft, without a valid
        Reynolds was sentenced to serve 5 months im­
                                                                      airman’s certificate. It is estimated that based
        prisonment, 5 months home confinement, and 3
                                                                      on Harris-Moore’s conduct, 80 investigations
        years of supervised release. He was also ordered
                                                                      were initiated into residential and commercial
        to pay a $10,000 fine and a $100 special as­
                                                                      burglaries, vehicle prowls, vehicle thefts, assault
        sessment. In addition, Reynolds must surrender
                                                                      on law enforcement officials, and the theft of five
        to the Government three UH-1H helicopters he
                                                                      aircraft. On July 4, 2010, he stole an aircraft in
        obtained through the surplus program and pay
                                                                      Indiana, which he flew to Grand Abaco Island
        all associated expenses related to their return.
                                                                      in the Bahamas, where Harris-Moore was ap­
                                                                      prehended. Under the terms of the plea agree­
        This investigation was conducted jointly with
                                                                      ment, Harris-Moore forfeits any financial gain
        the Defense Criminal Investigative Service;
                                                                      from telling his story, and the proceeds are to be
        GSA’s Office of Inspector General; the Texas
                                                                      used to compensate the victims of his crimes.
        Department of Public Safety, Texas Ranger
                                                                      Harris-Moore acknowledged that the amount of
        Division; and FAA.
                                                                      loss caused to victims of his crimes is at least
                                                                      $1.4 million.

                                                                      This investigation was conducted with the FBI
                                                                      and numerous State and local law enforcement
                                                                      agencies from across the country.




                                                 Aviation and Special Programs      8


14039_001-044_Audits and Investigations.indd 8                                                                        11/21/11 8:43 AM
        August 16, 2011                                              This investigation was conducted jointly with
                                                                     the South Carolina Department of Health and
        North Carolina Civil Engineer
                                                                     Environmental Control.
        Sentenced for Fraud Involving FAA
        Airport Improvement Projects                                 August 17, 2011

        In U.S. District Court, Anderson, South Carolina,
                                                                     The Owner and the Chief Inspector
        G. Martin Wynn, a civil engineer and project                 of a South Florida FAA Repair Station
        manager, was sentenced to 12 months and 1 day                Sentenced for Aircraft Parts Fraud
        imprisonment, followed by 3 years supervised
        release, and ordered to pay $118,000 in restitu­             Guillermo Galvan, president and owner of
        tion and a special assessment in the amount of               Aviation Engine Services (AES), an FAA-approved
        $200. Earlier this year, Wynn was convicted in a             repair station, and Jorge Gomez, AES’s Chief
        Federal jury trial of mail and wire fraud for falsify­       Inspector, were sentenced in U.S. District Court
        ing a State seal used in connection with a $4.3              Miami, Florida, for making false representations
        million FAA-funded airport improvement project.              to an AES customer concerning the calibration
                                                                     of a tool used to measure the intensity of a
        The investigation revealed that Wynn transferred             process required by the turbine engine manu­
        a South Carolina Department of Health and                    facturer’s Standard Practices Manual, which is
        Environmental Control seal from a previously ap­             adhered to in repairing and certifying the turbine
        proved runway extension construction plan onto               engine airworthy so it can be returned to service.
        an unapproved set of plans that were going to                Ultimately, the aircraft parts were installed in a
        be used on the continuing airport improvement                commercial aircraft’s turbine engine.
        projects at the Oconee Regional Airport. Wynn
        engaged in the forgery to avoid the scrutiny of              Galvan was sentenced to 5 years probation and
        State environmental regulators, which would                  ordered to pay a $50,000 fine, perform 150 hours
        have led to additional changes to his plans and              of community service per year of probation, and
        possibly substantial delays in construction of               pay a special assessment fee of $100. Gomez
        the project. The forged seal represented that                was sentenced to 5 years probation and ordered
        the plans had a necessary storm water permit to              to pay a $7,500 fine, perform 165 hours of com­
        guard against excessive erosion and run-off. The             munity service per year of probation, and pay a
        work at the airport, based on the unapproved                 special assessment fee of $100. Additionally, the
        plans, coincided with significant run-off of                 Judge ordered a “Related Concern Restriction”
        sediment and mud from the airport onto private               that Galvan and Gomez not perform any duties
        property and into a nearby lake.                             consistent with an aircraft inspector while serving
                                                                     their probation sentence unless supervised by a
                                                                     licensed aircraft inspector or unless specifically
                                                                     authorized by the Court.



                                                 Semiannual Report to Congress      9


14039_001-044_Audits and Investigations.indd 9                                                                      11/21/11 8:43 AM
         This investigation was conducted with assistance               Sorvik and Cheema were each sentenced to
         from the FAA South Florida Flight Standards                    5 months incarceration, 3 years supervised
         District Office.                                               release, with the first 5 months under house ar­
                                                                        rest, $16,000 in restitution, and a $100 special
         August 26, 2011                                                assessment.
         South Florida Men Sentenced and
                                                                        This investigation is being conducted jointly with
         Another Pleads Guilty in Connection                            Defense Criminal Investigative Service; Air Force
         With Aircraft Parts Fraud                                      Office of Special Investigations; the FBI; and the
                                                                        Department of Homeland Security, Immigration
         In U.S. District Court, Miami, Florida, Hector
                                                                        and Customs Enforcement, with FAA providing
         Sorvik, aka Hector Arias, and Saif Cheema
                                                                        technical assistance.
         were sentenced in connection with their guilty
         pleas to charges that they falsified aircraft parts            September 20, 2011
         traceability documentation while employed with
         Daytona Aerospace, Inc., a South Florida aircraft              Individuals Formerly Associated With
         parts broker and licensed Department of Defense                Charter Jet Company Sentenced
         (DOD) contractor. In addition, Kudus Amodu,
         another Daytona Aerospace, Inc., employee,                     Michael and Paul Brassington, co-founders of the
         pleaded guilty to charges that he falsified aircraft           now-defunct Platinum Jet Management, a luxury
         parts traceability documentation while employed                air charter service based in Fort Lauderdale,
         at Dayton.                                                     Florida, were sentenced in U.S. District Court,
                                                                        Newark, New Jersey. Michael Brassington was
         This investigation was based on allegations                    sentenced to serve 30 months in prison and 36
         that a conspiracy existed in which companies                   months of supervised release. Paul Brassington
         who were not approved by FAA or DOD had                        was sentenced to serve 18 months in prison
         manufactured aircraft parts for military and                   and 36 months of supervised release. Michael
         civilian aircraft. These manufacturers conspired               Brassington is also expected to face deportation
         with brokers and authorized DOD contractors                    to Guyana after his term of incarceration.
         to sell the unapproved aircraft parts to the U.S.
         Air Force. In cases where the customer required                On November 15, 2010, following a 4-week trial,
         supporting FAA authentication documents,                       the Brassingtons were convicted by a Federal
         brokers would further conspire with FAA repair                 jury on a series of charges stemming from a
         stations to falsify FAA forms, giving the illusion             February 2005 airplane crash in Teterboro, New
         that the manufactured parts were FAA approved                  Jersey. The Platinum jet over-ran the runway at
         and suitable for installation on an aircraft.                  Teterboro Airport, struck two cars as it crossed a
                                                                        roadway, and crashed into a warehouse, result­
                                                                        ing in injuries. A National Transportation Safety


                                                  Aviation and Special Programs      10


14039_001-044_Audits and Investigations.indd 10                                                                       11/21/11 8:43 AM
        Board (NTSB) investigation concluded that the                  qualification of pilots, and other FAA-required
        aircraft’s incorrect center of gravity contrib­                aircraft information.
        uted to the crash. OIG’s investigation revealed
        that the flight’s first officer relied on Michael              Vieira pled guilty to charges that between ap­
        Brassington’s representations concerning the                   proximately November 2002 and March 2005,
        weight of the aircraft, which caused the plane to              he had unjustly enriched himself by conspiring
        be over-fueled, bringing about an imbalance in                 to commit wire fraud. Vieira admitted that he had
        the center of gravity.                                         repeatedly violated airline safety and regulatory
                                                                       requirements such as falsifying aircraft records
        On August 16, 2011, Joseph Singh, former                       while operating Platinum as an on-demand
        Director of Charters for Platinum, was sentenced               domestic and international air charter service to
        in U.S. District Court, Newark, New Jersey, to                 brokers and individual customers. Vieira falsified
        1 year probation, restitution in the amount of                 pilot records to include rest-time requirements
        $200,000 (payable to victims of the impacted                   and periodic knowledge, competency, and
        flights), and a $5,000 fine. In July 2009, Singh               proficiency tests. He also falsified weight-and-
        pled guilty to conspiracy to defraud charter                   balance reports that were used to calculate the
        customers and brokers and to impede and                        aircraft’s weight and center of gravity. Among
        obstruct FAA. Singh admitted that as Director of               other misleading reports, Vieira also loaded the
        Charters for Platinum, he dispatched unqualified               aircraft with extra fuel where cheaper prices were
        or unrested pilots, including the pilot of the jet             available, even though the extra fuel caused the
        that crashed at Teterboro. He further admitted                 aircraft to exceed its allowable maximum weight.
        that from November 2003 until shortly after the
        Teterboro crash, he booked charter flights for                 September 29, 2011
        Platinum using charter brokers and dispatched                  Six Individuals Charged With Making
        unqualified Platinum pilots to fly a number of the
        flights, while representing to the charter brokers             Fraudulent Aircraft Repairs
        through wire communications that Platinum
                                                                       A Federal Grand Jury in Sacramento, California,
        complied with Federal law.
                                                                       indicted Jerry Kuwata, Michael Maupin, Scott
                                                                       Durham, Christopher MacQueen, Douglas
        Also in connection with this investigation,                    Johnson, and Anthony Zito on charges of con­
        Francis Vieira, former pilot and first officer for             spiracy to commit fraud involving aircraft parts in
        Platinum, was sentenced on August 22, 2011,                    interstate commerce and mail fraud. The defen­
        in U.S. District Court, Newark, New Jersey, to 6               dants are former executives and supervisors at
        months incarceration, 6 months home confine­                   WECO Aerospace Systems Inc., an FAA-certified
        ment, 3 years supervised release, and ordered                  air repair station based in Lincoln, California,
        not to fly during his supervised release period                which was purchased in 2007 by Gulfstream
        due to his role in a conspiracy to provide FAA                 Aerospace Corporation. WECO was required to
        with false records relating to aircraft weight,



                                                  Semiannual Report to Congress      11


14039_001-044_Audits and Investigations.indd 11                                                                       11/21/11 8:43 AM
         use FAA-approved parts and procedures in the
         repair and overhaul of aircraft parts.

         The defendants are charged with directing WECO
         technicians to use unapproved parts in repairs
         and overhauls. In addition, the defendants are
         alleged to have (1) regularly failed to follow the
         proper, approved procedures in the repair of air­
         craft parts and (2) lacked the equipment needed
         to perform many of the tests required by the
         approved procedures. According to the indict­
         ment, the defendants nonetheless performed
         repairs or directed WECO technicians to perform
         repairs of parts and returned those parts to cus­
         tomers, falsely certifying for each one that the
         part had been repaired in accordance with FAA
         regulations.

         This investigation was conducted jointly with the
         FBI, Defense Criminal Investigative Service, and
         DHS OIG.

         Note: Indictments, informations, and crimi-
         nal complaints are only accusations by the
         Government. All defendants are presumed in-
         nocent unless and until proven guilty.




                                                  Aviation and Special Programs      12


14039_001-044_Audits and Investigations.indd 12                                            11/21/11 8:43 AM
     In-Focus: Ensuring Satellite-Based Navigation in the
            National Airspace System Is Safe and Secure


T   hrough its multi-billion dollar NextGen pro­
    gram, FAA intends to completely transform
                                                        One challenge facing FAA is how to ensure that
                                                        the ADS-B ground network meets its require­
                                                        ments, since the Agency will not be conducting
the Nation’s air navigation system. According to
FAA, the cornerstone of NextGen is the $1.6-bil­        hands-on certification as it does for FAA-owned
lion Automatic Dependent Surveillance-Broad­            systems. While FAA will use network monitoring
cast (ADS-B) system—the first major air traffic         to identify shortfalls in ADS-B performance, blind
management system that the Government will              spots in the Agency’s oversight have been iden­
                                                        tified. For example, an ADS-B network outage
not own. ADS-B is expected to provide satellite-
                                                        revealed a contractor network design flaw that
based flight data—including aircraft identifica­
                                                        left FAA without visibility into the extent or cause
tion, position, speed, and heading—that until re­
                                                        of the outage. Regardless of system ownership,
cently was only provided by aging ground-based
                                                        FAA needs to be actively involved to ensure
radar systems. The anticipated benefits of ADS-         satellite-based flight data and systems are safe
B are reduced airport congestion and delays,            and secure. Contractor oversight is resource
more efficient fuel-saving routes, and the ability      intensive, and FAA has a shortage of trained and
to land in all weather conditions. However, FAA         certified logistics specialists who can provide
must overcome several challenges to ensure the          the expertise needed to ensure the safety and
satellite-based flight data are safe and secure.        continuity of the system.




                                   Semiannual Report to Congress      13
        Managing radio frequency congestion and protect­                        In addition to addressing security risks, test reports
        ing data transmissions are critical to ensuring the                     show much work remains before ADS-B can be
        integrity of ADS-B flight data. ADS-B is vulnerable                     relied on to manage traffic in congested airspace.
        to jamming, spoofing, and other malicious acts                          FAA has yet to finalize requirements for advanced
        that could interrupt signals and threaten the safety                    ADS-B capabilities, including what information
        of the air traffic control network. Cybersecurity of                    will be displayed in the cockpit, and how ADS-B
        the ADS-B ground infrastructure—which is cur­                           will be integrated into the displays and computers
        rently composed of a master station and about                           that controllers rely on to manage aircraft. Until
        300 radio stations for broadcasting and receiving                       FAA successfully completes this work, progress in
        precise aircraft position information—is also at                        realizing the benefits of ADS-B will remain elusive
        risk. To ensure that effective countermeasures are                      and airspace users will remain skeptical of FAA’s
        put in place, FAA must continue to work with the                        ability to deliver on a complex, long-term initiative
        U.S. intelligence community and the Department                          at risk. We will continue to monitor FAA’s progress
        of Defense to proactively assess security threats                       as it works to achieve the efficiency and safety
        to civil aviation.                                                      benefits envisioned for NextGen.




                          In Focus: Ensuring Satellite-Based Navigation in the National Airspace System is Safe and Secure      14


14039_001-044_Audits and Investigations.indd 14                                                                                       11/21/11 8:43 AM
                                                              Highway and Transit Programs

        Audits                                                        or under contract with automakers did not
                                                                      identify evidence suggesting undue influence or
        April 4, 2011                                                 pressure on Office of Defect Investigations (ODI)
                                                                      decisions. Additionally, NHTSA officials complied
        Letter to Chairmen Rockefeller                                with U.S. Office of Government Ethics rules for
        and Pryor Regarding Whether                                   employee training, financial disclosure reviews,
                                                                      and “cooling-off” periods for current employees
        Former NHTSA Employees Exerted                                who previously worked for automakers. NHTSA
        Undue Influence on Safety Defect                              also provided post-employment counseling to
        Investigations                                                employees who left the Agency to work in the
                                                                      auto industry. Finally, NHTSA’s ethics policies
        Requested by Chairman Rockefeller of the
                                                                      and procedures on employee training, financial
        Senate Committee on Commerce, Science,
                                                                      disclosure, and pre- and post-employment
        and Transportation and Chairman Pryor of the
                                                                      restrictions were similar to those for other DOT
        Subcommittee on Consumer Protection, Product
                                                                      Operating Administrations with safety oversight
        Safety, and Insurance
                                                                      and enforcement programs.

        Our review of former National Highway Traffic
                                                                      Per the Chairmen’s request, we are currently
        Safety Administration (NHTSA) officials employed
                                                                      reviewing NHTSA’s processes for investigating



                                                  Semiannual Report to Congress      15


14039_001-044_Audits and Investigations.indd 15                                                                    11/21/11 8:43 AM
        industrywide complaints of sudden unintended                   July 21, 2011
        acceleration and brake failure and will report on
                                                                       FMCSA Is Strengthening Motor Carrier
        our results later this year.
                                                                       Safety Oversight but Further Action
        July 15, 2011                                                  and Attention Are Needed
        Federal Highway Administration’s                               Statement for the Record for the Senate
        Oversight of Federal-Aid and Recovery                          Committee on Commerce, Science, and
                                                                       Transportation, Subcommittee on Surface
        Act Projects Administered by Local                             Transportation      and     Merchant       Marine
        Public Agencies Needs Strengthening                            Infrastructure, Safety and Security hearing on the
        Self-initiated                                                 Motor Carrier Safety Program’s reauthorization


        Local Public Agencies (LPA) received an esti­                  Over the past several years, the Federal Motor
        mated $8 billion in Recovery Act highway funds                 Carrier Safety Administration (FMCSA) has made
        for highway construction projects. The Federal                 progress in improving its programs, but our com­
        Highway Administration (FHWA) previously ac­                   pleted and ongoing audits and investigations
        knowledged that LPAs were an internal control                  continue to identify weaknesses and challenges
        weakness. Our review of 59 LPA projects in four                FMCSA must overcome to ensure their effec­
        States identified 88 percent with at least one case            tive implementation. This statement discusses
        of noncompliance with Federal requirements                     (1) the challenges in implementing regulations
        and $5 million in unsupported costs. The most                  and countering fraud in the Commercial Driver’s
        prevalent shortcomings related to construction                 License (CDL) program; (2) FMCSA’s progress
        management requirements.                                       in responding to NTSB passenger carrier safety
                                                                       recommendations, including identifying “reincar­
                                                                       nated carriers”; and (3) our audit and investiga­
        Our report also identified weaknesses in the
                                                                       tive work in areas of past and present interest
        actions FHWA has taken in addressing State
                                                                       to the committee—including household goods
        LPA oversight weaknesses. We made four rec­
                                                                       fraud and cross-border trucking—and important
        ommendations for improving FHWA oversight.
                                                                       actions FMCSA must take to improve internal
        FHWA concurred with all four recommendations.
                                                                       acquisition and contracting practices.

                                                                       While FMCSA has strengthened the CDL pro­
                                                                       gram, countering CDL fraud and implementing
                                                                       CDL regulations, such as rules to promptly add
                                                                       traffic convictions to a driver’s record, remain
                                                                       a challenge. FMCSA has also put measures in
                                                                       place to prevent unsafe passenger carriers from



                                                  Highway and Transit Programs      16


14039_001-044_Audits and Investigations.indd 16                                                                      11/21/11 8:43 AM
        continuing operations under a new identity,                    combating fraud, waste, and abuse, with a par­
        but it has yet to fully implement other NTSB                   ticular focus on DBE fraud. Further, FTA’s efforts
        recommendations on passenger carrier safety.                   ensured that MTA established controls to com­
        We continue our work to investigate criminal                   ply with ARRA requirements for accountability
        activity among household goods carriers and                    and timely reporting. However, it did not detect
        fulfill congressional requirements to evaluate                 errors in the number of ARRA-funded jobs MTA
        FMCSA’s implementation of a pilot program to                   reported.
        allow Mexican carriers to engage in cross-border
        operations. Finally, FMCSA has begun to ad­                    We recommended that FTA take additional steps
        dress recommendations we made to improve                       to (1) finalize a compliance review of MTA’s DBE
        its acquisition and contracting practices, but it              program, and (2) increase its level of oversight
        needs to follow through on commitments made                    of the ARRA information MTA submits to the
        in response to our past audit work to ensure                   Federal Government to reduce omissions or
        the effective execution of contractor-supported                errors in future submissions. FTA completed ac­
        safety programs.                                               tion on the first recommendation but disagreed
                                                                       with the second, stating that it has complied
        August 15, 2011                                                with Office of Management and Budget (OMB)
        New York City Fulton Street Transit                            requirements. After consulting with OMB, we
                                                                       maintain that further FTA action is needed to re­
        Center: FTA’s Sustained Focus on Key                           duce omissions or errors in MTA’s future job data
        Risk Areas Is Needed Until the Project                         submissions, and the recommendation remains
        Is Completed                                                   open.
        Self-initiated                                                 August 19, 2011

        The Federal Transit Administration (FTA) is respon­            FMCSA Generally Complies With
        sible for overseeing the New York Metropolitan                 Statutory Requirements, but Actions
        Transportation Authority’s (MTA) construction of
        the York City Fulton Street Transit Center project.
                                                                       Are Needed Prior To Initiating Its
        Project funding includes $423 million in ARRA                  NAFTA Cross-Border Trucking Pilot
        funds—the largest single award for any of FTA’s                Program
        ARRA projects.                                                 Required by Section 6901 of the U.S. Troop
                                                                       Readiness, Veteran’s Care, Katrina Recovery,
        While FTA has provided sufficient oversight of                 and Iraq Accountability Act, 2007
        the project, FTA and MTA must maintain vigilance
        in preventing schedule delays; maintaining the                 On July 6, 2011, the United States Secretary
        project’s budget; ensuring the project remains                 of Transportation and the Mexico Secretaría de
        within current committed funding amounts; and                  Comunicaciones y Transportes signed a MOU


                                                  Semiannual Report to Congress      17


14039_001-044_Audits and Investigations.indd 17                                                                      11/21/11 8:44 AM
        resolving a long-standing dispute over long-                   FMCSA has not (1) issued site-specific plans
        haul, cross-border trucking services between the               for checking drivers and trucks at the border,
        United States and Mexico under the provisions                  (2) established a system to verify driver and
        of the North American Free Trade Agreement                     truck eligibility for the pilot program, (3) issued
        (NAFTA). By law, FMCSA must first test long-haul               an implementation plan or acquired electronic
        operations as part of a pilot program before it                monitoring devices for use in the pilot program,
        grants long-haul operating authority to Mexico-                or (4) conducted pilot program training for in­
        domiciled motor carriers.                                      spection personnel at the border and within the
                                                                       United States.
        While FMCSA has met most requirements, it
        has not identified the specific process it will use            We recommended that the FMCSA Administrator
        to comply with requirements for conducting 50                  ensure that the Secretary’s report addresses
        percent of the pre-authority safety audits and                 these issues. FMCSA concurred with the recom­
        compliance reviews onsite in Mexico. In addition,              mendation and provided a completion date for
        FMCSA has not yet addressed certain issues for                 its planned actions.
        implementing the pilot program. Specifically,




                                                  Highway and Transit Programs      18


14039_001-044_Audits and Investigations.indd 18                                                                       11/21/11 8:44 AM
        Investigations                                                 May 20, 2011
                                                                       New York Construction Company
        May 18, 2011                                                   Associate Sentenced to 3 Years
        Former Missouri Police Officer Indicted                        Probation for DBE Fraud Scheme
        for Stealing NHTSA Grant Funds
                                                                       Lester Hamilton, salesman for V.V.S.S. Co., Inc.
        Sean Lane, former Lieutenant, City of Jennings,                (VVSS), was sentenced in U.S. District Court,
        Missouri, Police Department, was indicted in St.               Central Islip, New York, for his role in a $21 mil­
        Louis County Court on State charges of stealing                lion DBE fraud scheme. Hamilton admitted that
        by deceit. The indictment charges that over a                  VVSS, a certified DBE, acted as a DBE front
        2-year period, Lane allegedly stole money from                 on approximately 35 public works construction
        a NHTSA grant, as well as money from Central                   projects for numerous general contractors in the
        Missouri State University; Missouri Department                 New York City area. He further admitted that he
        of Transportation; and the City of Jennings,                   helped negotiate some of these fraudulent sub­
        Missouri, by reporting he worked more overtime                 contracts between VVSS and the general con­
        on grant-funded assignments than he actu­                      tractors. In return, VVSS agreed to receive fees
        ally did. The City of Jennings, Missouri, Police               from the general contractors of approximately 5
        Department had received grant money from                       percent of the value of the subcontracts for the
        NHTSA for enforcing driving while under the                    use of their DBE status. VVSS served as a payroll
        influence violations.                                          and invoice processing service for the general
                                                                       contractors.
        This case was conducted jointly with the Missouri
        State Highway Patrol and the St. Louis County                  Hamilton admitted that he falsified the books
        Prosecutor’s Office.                                           and records of VVSS and submitted false
                                                                       documentation to various unions and union
        Note: Indictments, informations, and crimi­                    benefit funds to conceal the fact that the VVSS
        nal complaints are only accusations by the                     DBE subcontracts were actually performed by
        Government. All defendants are presumed in­                    the general contractors. VVSS prepared and
        nocent unless and until proven guilty.                         routinely submitted false certified payrolls and
                                                                       other documents to public contracting agencies
                                                                       who received DOT grant funds, including the
                                                                       New York State Department of Transportation,
                                                                       the New York City Department of Transportation,
                                                                       the New York State Metropolitan Transportation
                                                                       Authority, and the Port Authority of New York &
                                                                       New Jersey.




                                                  Semiannual Report to Congress      19


14039_001-044_Audits and Investigations.indd 19                                                                       11/21/11 8:44 AM
        Hamilton was sentenced to serve 3 years proba­                 In March 2011, the Fort Worth City Council
        tion and ordered to pay a $100 special assess­                 approved reimbursing the Texas Department
        ment fee and restitution to the Internal Revenue               of Transportation (TXDOT) $231,000 in grant
        Service in the amount of $12,161.86 for unpaid                 money that had been used to pay the questioned
        taxes, interest, and penalties.                                overtime.

        This investigation was conducted by the Federal                This investigation is being conducted jointly with
        Construction Fraud Task Force for the Eastern                  the Fort Worth Police Department and the FBI,
        District of New York, whose members include                    with assistance from NHTSA and TXDOT.
        the Internal Revenue Service (IRS), Criminal
        Investigation Division; the U.S. Department of                 Note: Indictments, informations, and crimi­
        Labor, Office of Inspector General, Office of Labor            nal complaints are only accusations by the
        Racketeering and Fraud Investigations; and the                 Government. All defendants are presumed in­
        New York City Department of Investigation.                     nocent unless and until proven guilty.

        May 25, 2011                                                   May 31, 2011
        Former Fort Worth Police Officer                               Georgia Couple Sentenced in
        Indicted in Local Court for Traffic                            Conspiracy To Violate FMCSA
        Ticket Scheme Involving NHTSA Grant                            Hazardous Materials Regulations
        Money                                                          Thomas Watson and Cathy Watson, principal op­
        Herman Young, former Fort Worth police officer,                erators of now dissolved TomCat Trucking, Inc.,
        was indicted in Tarrant County District Court,                 were sentenced in U.S. District Court, Macon,
        Fort Worth, Texas, on 12 counts of tampering                   Georgia, for conspiring to violate FMCSA’s
        with a governmental record and one count of                    Hazardous Materials Regulations.
        theft by a public servant.
                                                                       In January 2009, following a FMCSA safety com­
        Young is accused of entering false times on 12                 pliance review, TomCat Trucking was issued an
        traffic tickets and receiving more than $20,000                Out-of-Service Order, which included revoking
        in overtime for hours he did not work in 2008,                 their certificate and registration to operate. The
        2009, and 2010. Young is one of several Fort                   subsequent investigation revealed that between
        Worth police officers suspected in this traffic                January and July 2009, the Watsons transported
        ticket scheme. The officers allegedly issued                   numerous loads of placardable quantities of
        tickets during normal duty hours but indicated                 hazardous materials including ammonium nitrate
        that the tickets were issued while working over­               and Telone II, a flammable and toxic pesticide.
        time under the Selective Traffic Enforcement                   The Watsons were each sentenced to 3 years
        Program, which is federally funded through a                   probation, fined $5,000, and ordered to pay a
        NHTSA grant.                                                   $100 special assessment fee.

                                                  Highway and Transit Programs      20


14039_001-044_Audits and Investigations.indd 20                                                                      11/21/11 8:44 AM
        This investigation was conducted with assis­                   Between January 2000 and December 2001,
        tance from FMCSA.                                              Fairview, a certified DBE, obtained three DBE
                                                                       subcontracts from the Perini Corporation to in­
        June 1, 2011                                                   stall rebar. Funny conspired with Walter Bale, the
        Former Federal Motor Carrier Safety                            owner of Walter Construction Associates (WCA),
                                                                       to have WCA perform the work on the subcon­
        Supervisor Pleads Guilty to Bribery                            tracts. Funny also transferred Bale’s employees
        Charge                                                         and expenses to Fairview’s books and records
                                                                       to give the false appearance that Fairview was
        James H. Wood, former Supervisory Highway                      performing the DBE subcontracts for Perini.
        Safety Specialist with FMCSA, Buffalo, New York,
        pleaded guilty in U.S. District Court, Buffalo, New            The investigation was conducted by the Federal
        York to an Information charging him with bribery.              Construction Fraud Task Force for the Eastern
                                                                       District of New York, whose members include
        The investigation disclosed that Wood requested                the IRS’s Criminal Investigation Division; the
        and accepted payments from Canadian safety                     U.S. Department of Labor, Office of Inspector
        consultants to postpone safety audits of Canadian              General, Office of Labor Racketeering and Fraud
        trucking companies; to provide satisfactory rat­               Investigations; and the New York City Department
        ings to Canadian trucking companies; and to                    of Investigation.
        provide internal FMCSA information, including
        lists of scheduled safety audits, to Canadian                  June 20, 2011
        trucking safety consultants. Subsequent to his
        arrest, FMCSA terminated Wood’s employment.
                                                                       Corporations Plead Guilty and
        Sentencing is scheduled for October 19, 2011.                  Owner Sentenced in Iowa Ready-Mix
                                                                       Concrete Anti-Trust Investigation
        This investigation was conducted jointly with the
        FBI.                                                           Tri-State Ready Mix, Inc. (TRM) pleaded guilty in
                                                                       U.S. District Court, Sioux Falls, Iowa, to Sherman
        June 17, 2011                                                  Antitrust Act charges for its role in the scheme
                                                                       to manipulate the ready-mix concrete market.
        New York Construction Company                                  TRM admitted that as early as January 2006 and
        President Sentenced to 3 Years                                 continuing through August 2009, Chad Van Zee,
        Probation for DBE Fraud Scheme                                 owner and president, TRM, engaged in discus­
                                                                       sions and reached agreements with Steven
        Stephen Funny, president of Fairview Contracting               VandeBrake of GCC Alliance Concrete and its
        Corporation, was sentenced in U.S. District                    predecessor entity regarding the conspirators’
        Court, Central Islip, New York, to 3 years proba­              prices for ready-mix concrete sold in Iowa.
        tion and ordered to pay $100 special assessment
        for his role in a $7.9 million DBE fraud scheme.


                                                  Semiannual Report to Congress      21


14039_001-044_Audits and Investigations.indd 21                                                                      11/21/11 8:44 AM
        On June 21, 2011, Van Zee was sentenced to                     EVW and its wholly-owned subsidiary ElectraStor
        45 days incarceration followed by 36 months                    LLC received funding from FTA through the
        of supervised release and 80 hours of commu­                   Pioneer Valley Transit Authority (PVTA) to de­
        nity service. In addition, Van Zee was ordered                 velop a nickel-hydride battery to power a bus.
        to pay a $50,000 fine and pay a $100 special                   EVW received approximately $4.2 million in FTA
        assessment.                                                    funds via congressional earmarks between 2000
                                                                       and 2006.
        On August 24, 2011, Great Lakes Concrete,
        Inc., pleaded guilty to participating in a price-              The investigation disclosed that between
        fixing and bid-rigging conspiracy for the sales                November 2004 and July 2006, Willson, EVW,
        of ready-mix concrete. Great Lakes, particularly               and Michael Armitage, former EVW CEO, con­
        through its President, Kent Robert Stewart, and                spired to defraud FTA by submitting fraudulent
        sales manager Steven Keith VandeBrake, admit­                  invoices to FTA through PVTA, which claimed that
        ted to conspiring to fix prices and rig bids with              the FTA share of project costs did not exceed the
        another ready-mix concrete company for the                     50-percent level required under the terms of the
        sale of ready-mix concrete in Iowa. Stewart                    funding and sought reimbursement for fictitious,
        and VandeBrake previously pleaded guilty and                   inflated, or ineligible expenses. Through pro­
        have been sentenced in connection with this                    ceeds from the invoices, Willson, Armitage, and
        investigation.                                                 EVW received wire transfers of approximately
                                                                       $703,000, which they used for their own benefit
        This investigation was conducted with the U.S.                 as well as for the benefit of HSM Systems, Inc.,
        Attorney’s Office, Antitrust Division, Chicago,                a Canadian company founded by Armitage and
        and the FBI.                                                   Willson.

        June 21, 2011                                                  Willson, EVW, and Armitage were indicted in
        Former Vice President of FTA Grantee                           April 2009 on various charges, including wire
                                                                       fraud, conspiracy, false claims, and endeavor­
        Convicted of Conspiracy,Wire Fraud,                            ing to obstruct a DOT OIG audit. Armitage was
        and False Claims in Massachusetts                              also charged with numerous unrelated criminal
                                                                       tax violations and pleaded guilty to all charges
        Trial
                                                                       on October 20, 2010. In June 2011, charges
        Christopher Willson, former senior vice-president              against Willson related to obstruction of an audit
        of EV Worldwide LLC (EVW), was convicted after                 were dismissed, and the indictment against the
        a 2-week jury trial in U.S. District Court, Boston,            defunct EVW was dismissed in its entirety.
        Massachusetts, of one count of conspiracy to
        defraud the United States, six counts of wire                  The investigation was jointly conducted with
        fraud, and four counts of submitting false claims              IRS’s Criminal Investigative Division and assisted
        to the United States.                                          by the Defense Contract Audit Agency.


                                                  Highway and Transit Programs      22


14039_001-044_Audits and Investigations.indd 22                                                                      11/21/11 8:44 AM
        June 28, 2011                                                  July 19, 2011
        New York Construction Company                                  South Carolina Department of
        Owners Plead Guilty in Connection                              Motor Vehicle Employee Indicted for
        With DBE Fraud Scheme                                          Issuing Fraudulent Commercial Driver
        Balu Kamat and Carmine Desio, president and
                                                                       Licenses
        vice president, respectively, of Environmental                 Brenda Kay Poston, a former South Carolina
        Energy Associates (EEA), pleaded guilty in the                 Department of Motor Vehicles (SCDMV)
        U.S District Court, New York City, New York, to                Customer Service Representative, was indicted
        mail fraud charges. EEA is a Disadvantaged and                 in U.S. District Court, Columbia, South Carolina,
        Minority Business Enterprise (D/MBE) that was                  on multiple counts of making false statements
        used as a front DBE on projects receiving DOT                  related to a scheme that resulted in CDLs being
        grant funds.                                                   issued to unqualified applicants.

        Kamat and Desio admitted that since 1997, they                 This investigation resulted from a request for
        participated in a scheme wherein they entered                  assistance from SCDMV following its discovery
        EEA into public contracts to perform an array                  that Poston aided several individuals in creating
        of subcontract work knowing that their com­                    false CDL test scores; knowledge and road test
        pany lacked the labor, equipment, and financial                scores; and operational enhancements, such as
        wherewithal to perform the work. As part of the                HAZMAT and passenger endorsements by en­
        scheme, they agreed to put employees of a spe­                 tering false information into SCDMV databases.
        cific general contractor (unnamed in the indict­               OIG and SCDMV reviewed the Driver History
        ment) on EEA’s certified payrolls. This scheme                 Records System, which identified 19 drivers
        occurred on the Metropolitan Transportation                    with suspicious or unverifiable credentials dat­
        Authority (MTA) New York City Transit Authority                ing back to 2004. Poston confessed to her role
        (NYCTA) Fulton Street Transit Center-Dey Street                in issuing 19 CDLs, and 13 drivers admitted to
        Concourse, with a total DBE subcontract value                  obtaining their CDL or endorsements fraudu­
        of $5.2 million.                                               lently. SCDMV officials instituted administrative
                                                                       revocations of those drivers’ credentials and
        This investigation is being conducted jointly with             offered re-examinations of all drivers believed to
        the New York State Metropolitan Transportation                 be the recipient of a fraudulent CDL. Poston was
        Authority OIG; the U.S. Department of Labor,                   terminated from her position. She fled the juris­
        Office of Labor Racketeering and Fraud                         diction of U.S. District Court in South Carolina
        Investigations; and the Port Authority of New                  and remains at large.
        York and New Jersey OIG.




                                                  Semiannual Report to Congress      23


14039_001-044_Audits and Investigations.indd 23                                                                      11/21/11 8:44 AM
        This investigation was conducted jointly with the              July 29, 2011
        South Carolina Department of Law Enforcement
                                                                       Minnesota Trucking Company Owner
        Division.
                                                                       Pleads Guilty to Wire Fraud
        Note: Indictments, informations, and crimi­
                                                                       Marlon Louis Danner, operator of Danner, Inc.,
        nal complaints are only accusations by the
                                                                       and Bulldog Leasing, Inc., pleaded guilty in
        Government. All defendants are presumed in­
                                                                       U.S. District Court Minneapolis, Minnesota, to
        nocent unless and until proven guilty.
                                                                       wire fraud for his role in a scheme to defraud
                                                                       truck drivers out of settlement funds the drivers
        July 27, 2011
                                                                       should have received pursuant to an agreement
        FMCSA Motor Carrier Safety Specialist                          between Danner and the Minnesota Department
        Pleads Guilty to Accepting a Bribe                             of Transportation (MnDOT).

        Eric Hernandez, FMCSA Carrier Safety Specialist,               In 2008 and 2009, Danner supplied drivers for a
        pleaded guilty in U.S. District Court, Laredo,                 federally funded Minnesota highway reconstruc­
        Texas to bribery of public officials. Hernandez                tion project and was required to pay a minimum
        sold a Level I Commercial Vehicle Safety Alliance              truck rental rate to the drivers. The investigation
        (CVSA) decal to the driver of a commercial motor               determined that Danner underpaid the drivers
        vehicle knowing that the vehicle had not been                  more than $185,000 in back wages. A settlement
        inspected. A CVSA decal is issued to commer­                   was reached, which required Danner to pay the
        cial motor vehicles passing roadside or periodic               back wages to the drivers. Shortly after, Danner
        inspections performed under the authority of                   informed certain drivers that the money did not
        FMCSA or any State government. The alleged                     belong to them and that they were required to re­
        activity was reported to the Texas Department                  turn the money to Danner once they received the
        of Public Safety, which initiated an investigation             money from MnDOT. From March through May
        and obtained video footage capturing the inci­                 2010, many of the drivers wrote checks to the
        dent. Hernandez was subsequently arrested.                     Danner, Inc., and Bulldog Leasing as directed by
                                                                       the defendant and through his office manager.
        In June 2011, Hernandez was removed from his                   Danner failed to disclose and affirmatively con­
        position with FMCSA. The Texas Department of                   cealed these repayments to MnDOT.
        Public Safety and FMCSA are assisting in this
        ongoing investigation.                                         This investigation was conducted jointly with the
                                                                       MnDOT Labor Compliance Unit and the FBI.




                                                  Highway and Transit Programs      24


14039_001-044_Audits and Investigations.indd 24                                                                       11/21/11 8:44 AM
        August 15, 2011                                                August 24, 2011
        Former Tennessee Department of                                 Minnesota Transit Constructors, Inc.,
        Transportation Employee Sentenced                              Agree To Pay $4.6 Million To Resolve
        for Soliciting and Accepting Bribes                            False Claims
        From a Subcontractor                                           A $4.6 million False Claims Act Civil Settlement
        In U.S. District Court, Nashville, Tennessee,                  Agreement was executed between the
        James D. Hagar, former Tennessee Department                    Department of Justice and the U.S. Attorney’s
        of Transportation (TDOT) Operations Specialist,                Office for the District of Minnesota, and the
        was sentenced to 6 months incarceration and 2                  Minnesota Transit Constructors, Inc. (MnTC), a
        years supervised release, ordered to pay $30,000               joint venture comprised of several contractors—
        in restitution payable to FHA, and fined $4,000                Granite Construction, C.S. McCrossan, Inc.,
        in connection with his guilty plea to accepting a              and Parson Transportation Group—as well as a
        bribe from a subcontractor in connection with a                number of subcontractors.
        roadway project receiving Federal funds.
                                                                       MnTC designed and built the Hiawatha Light Rail
        While working on the federally funded contract                 System, linking the Minneapolis-St. Paul airport
        in his capacity as a TDOT Operations Specialist,               and the Mall of America. Because the project was
        Hagar approved the installation of additional                  funded by FTA, MnTC was required to comply
        impact attenuators (impact reduction devices)                  with DBE requirements as well as use its own re­
        by a subcontractor over and above the original                 sources and workforce to perform subcontracted
        number of devices specified in the initial con­                work. The United States contends that between
        tract. In exchange for his approval of $272,000                June 2000 and July 2005 MnTC claimed that
        in additional devices, Hagar solicited and ac­                 materials and services for the project were pro­
        cepted $30,000 in unauthorized payments from                   vided by four legitimate DBEs—Summit Electric,
        the subcontractor.                                             B&L Electrical Supply, L&S Contracting, and
                                                                       Lanier Steel—when in fact they were provided
                                                                       by non-DBEs. The legitimate DBEs were merely
        This investigation was conducted jointly with the
                                                                       used as pass-throughs to make it appear as if a
        Tennessee Bureau of Investigation, with assis­
                                                                       DBE had performed the work.
        tance from the State Attorney General’s Office.

                                                                       Although the contractors deny the contentions,
                                                                       they entered into the Settlement Agreement to
                                                                       avoid the inconvenience and expense of a pro­
                                                                       tracted litigation and agreed to pay the United
                                                                       States $4.6 million to resolve the allegations.




                                                  Semiannual Report to Congress      25


14039_001-044_Audits and Investigations.indd 25                                                                    11/21/11 8:44 AM
         This investigation was conducted with the 
 September 20, 2011
         Department of Justice and the Civil Division 

                                                           Main Defendants Plead Guilty on the
         for the U.S. Attorney’s Office in the District of
         Minnesota, along with FTA.                        Eve of Trial in Pennsylvania CDL Fraud
                                                                       Case
         September 7, 2011
                                                                       On September 8, 2011, Vitaliy Kroshnev, Tatyana
         New York Construction Company                                 Kroshnev, and Tair Rustamov each pled guilty
         Owner Sentenced for Highway Fraud                             in Philadelphia, Pennsylvania, to one count of
                                                                       conspiracy to produce and aid and abet in the
         Oscar Rayford was sentenced in U.S. District
                                                                       production of identification documents. Vitaliy
         Court in Buffalo, New York. Rayford—owner of
                                                                       Kroshnev also pled guilty to an additional false
         Rayford Enterprises, Inc., a certified DBE—was
                                                                       statement count. On September 20, 2011, follow­
         sentenced to 8 months of home confinement,
                                                                       ing a 5-day trial, Irina Rakhman was found guilty
         1 year of probation, a $7,500 fine, and a $100
                                                                       by a Federal jury in Philadelphia, Pennsylvania,
         special penalty assessment. Rayford was also
                                                                       of conspiracy to produce identification docu­
         ordered to forfeit $1.8 million to the Government.
                                                                       ments without lawful authority.

         Rayford previously pled guilty to a mail fraud
                                                                       A Federal Grand Jury had charged Vitaliy and
         charge, admitting that between 2001 and 2007
                                                                       Tatyana Kroshnev, Rustamov, Rakhman, and
         he falsely represented to various Government
                                                                       six others with false statements, identification
         agencies that his company was performing a
                                                                       document fraud, and bank fraud for their roles
         “commercially useful function” as a DBE manu­
                                                                       in a conspiracy that allegedly aided more than
         facturer of concrete. In fact, he entered into a se­
                                                                       400 unqualified individuals in obtaining false
         ries of agreements with Lafarge North America,
                                                                       Pennsylvania CDLs. The conspirators operated
         a non-DBE, where Lafarge performed virtually all
                                                                       as the International Training Academy (ITA), which
         of the work functions associated with concrete
                                                                       purported to be both a truck-driving school and a
         production and delivery on five FHWA-funded
                                                                       business that rented tractor-trailers for FMCSA’s
         highway construction projects. Rayford obtained
                                                                       regulated CDL Skills Tests. The conspirators al­
         payments from the general contractors, retained
                                                                       legedly bypassed FMCSA regulations by provid­
         a small percentage as his fee, and passed on the
                                                                       ing customers with false Pennsylvania residency
         remainder to Lafarge. The total value of the work
                                                                       documents used to satisfy requirements of the
         performed by Lafarge on behalf of Rayford was
                                                                       Pennsylvania Department of Transportation.
         in excess of $3.2 million.
                                                                       Once ITA established the false Pennsylvania
                                                                       residency of the unqualified applicant, corrupt
                                                                       interpreters nefariously provided answers to
                                                                       customers taking the CDL Knowledge Test.




                                                  Highway and Transit Programs      26


14039_001-044_Audits and Investigations.indd 26                                                                      11/21/11 8:44 AM
        This is a joint investigation with the FBI, with               structures with concrete mix that either had
        assistance from FMCSA and the Pennsylvania                     not been tested at all, or had been tested and
        State Police.                                                  failed to reach the requirement to withstand at
                                                                       least 4,500 pounds per square inch. Based on
        September 19, 2011                                             the shipping tickets that Rivas falsely certified
        Company Employee Pleads Guilty                                 on behalf of FPC, the Maryland State Highway
                                                                       Administration (MSHA) paid three prime contrac­
        in Fraud Scheme Involving Highway                              tors at least $131,410 for the deficient materials,
        Projects                                                       who in turn paid FPC.

        Santos Eliazar Rivas pled guilty in U.S. District              Rivas is an illegal alien and is currently being
        Court in Baltimore, Maryland, to three counts                  detained by ICE pending sentencing.
        of making false statements in a matter involv­
        ing FHWA. According to the plea agreement,
                                                                       This is a joint investigation with ICE, with assis­
        Rivas became the Director of Quality Control
                                                                       tance from FHWA, and MSHA.
        for Frederick Precast Concrete, Inc. (FPC), a
        company that produced precast concrete struc­                  September 2011
        tures, including structures for drainage, used
        in construction projects involving the Woodrow                 Three Former Fort Worth Police
        Wilson Bridge and the I-70/Baltimore National                  Officers Indicted in Local Court for
        Pike Project. Rivas’ duties included overseeing
        the manufacturing of the company’s precast
                                                                       Traffic Ticket Scheme Involving NHTSA
        products and ensuring the company’s compli­                    Grant Money
        ance with State regulations.
                                                                       In early September 2011, Marcus B. Mosqueda,
                                                                       Maurice Middleton, and James Dunn, former
        The investigation disclosed that FPC’s products
                                                                       Fort Worth police officers, were indicted in
        delivered to federally funded project sites failed
                                                                       Tarrant County District Court, Fort Worth, Texas.
        to conform to State-approved specifications.
                                                                       Mosqueda, Middleton, and Dunn were all indict­
        Certain structures contained the wrong number
                                                                       ed on charges of tampering with a governmental
        and/or type of steel rebar pieces in their frames;
                                                                       record and theft by a public servant.
        others contained unapproved substitutions of
        wire mesh in place of steel rebar. Accordingly,
                                                                       Mosqueda, Middleton, and Dunn are accused
        none of these structures conformed to State-
                                                                       of entering false times on 18 traffic tickets, 19
        approved specifications, and all of them were
                                                                       traffic tickets, and 21 traffic tickets, respectively.
        materially weaker than if they had been produced
                                                                       In addition, all three are accused of receiving
        according to design. The investigation further
                                                                       overtime pay for hours they did not work in 2008,
        disclosed that on numerous occasions, Rivas
                                                                       2009, and 2010. Mosqueda, Middleton, and
        signed off on shipping tickets listing precast
                                                                       Dunn are three of nine Fort Worth police officers


                                                  Semiannual Report to Congress      27


14039_001-044_Audits and Investigations.indd 27                                                                          11/21/11 8:44 AM
suspected in this traffic ticket scheme. The of­
ficers allegedly issued tickets during normal as­
signed duty hours but indicated that the tickets
were issued while working overtime under the
Selective Traffic Enforcement Program, which is
funded through a NHTSA grant.

In March 2011, the Fort Worth City Council ap­
proved reimbursing the Texas Department of
Transportation $231,000 in grant money that had
been used to pay the nine officers’ overtime.

This investigation is being conducted jointly with
the Fort Worth Police Department and the FBI,
with assistance from the NHTSA and the Texas
Department of Transportation.

Note: Indictments, informations, and crimi-
nal complaints are only accusations by the
Government. All defendants are presumed in-
nocent unless and until proven guilty.




                                    Highway and Transit Programs      28
               In Focus: Ensuring the Continued Safety of Nation’s
             Highways Under NAFTA’s Cross-Border Pilot Program


        W      ith the signing of the 1992 North American
               Free Trade Agreement (NAFTA), the United
        States and Mexico consented to cross-border
                                                                       which has plagued DOT and FAA for many years
                                                                       and resulted in disclaimers of opinion, qualified
                                                                       opinions, and material weaknesses in internal
        trucking throughout both countries by the year                 control—was not identified as a concern.
        2000. However, in 1995, the United States in­
                                                                       To resolve this long-standing impasse, the U.S.
        definitely delayed the implementation of NAFTA
                                                                       Secretary of Transportation and the Mexico Sec­
        cross-border provisions, citing safety concerns.
        In 2007, the Secretary of Transportation an­                   retaria de Comunicaciones y Transportes signed
        nounced a 1-year pilot program that would per­                 a memorandum of understanding on July 6,
        mit up to 100 Mexican motor carriers to begin                  2011, to allow long-haul, cross-border trucking
        operating beyond border commercial zones. The                  services between the United States and Mexico.
        pilot program ended in 2009 without authoriz­                  In the same month, the Federal Motor Carrier
        ing Mexico-domiciled carriers to conduct long-                 Safety Administration (FMCSA) authorized Mex­
        haul operations. Subsequently, Mexico imposed                  ico-domiciled motor carriers to transport cargo,
        tariffs on several categories of goods imported                under a pilot program, beyond the commercial
        from the United States.                                        zones.
        During fiscal year 2010, both DOT and FAA                      Since 1998, we have issued 13 reports and tes­
        earned their third consecutive clean audit opin­               tified 10 times on FMCSA programs that have
        ions without material weaknesses in internal con­              been established to address congressional
        trol. Of particular note, property management—                 pre-conditions for allowing Mexico-domiciled


                                                  Semiannual Report to Congress      29


14039_001-044_Audits and Investigations.indd 29                                                                     11/21/11 8:44 AM
        motor carriers to operate within and beyond                          decal have received a safety inspection within
        commercial zones along the United States-                            the last 3 months. Without such plans, there is
        Mexico border. FMCSA has taken action to meet                        an increased risk that Mexican carriers will not
        most of the mandates that are required before it                     be inspected in accordance with FMCSA’s pilot
        processes pilot program applications, but more                       program provisions. In conjunction with validat­
        work is needed.                                                      ing truck inspections, FMCSA must develop a
                                                                             system to verify that drivers are eligible for the
        FMCSA continues to face the challenge of finaliz­
                                                                             pilot program. One specific eligibility require­
        ing the process it will use to comply with require­
                                                                             ment for drivers is that they be sufficiently profi­
        ments to conduct 50 percent of pre-authorization
                                                                             cient in English.
        safety audits (PASA) and compliance reviews in
        Mexico. While FMCSA plans to conduct PASAs                           Establishing controls and processes to moni­
        in Mexico, it has yet to address where in Mexico                     tor the safety performance of Mexico-domiciled
        the reviews will be conducted or when.                               motor carriers with long-haul operating authority
                                                                             will help FMCSA maintain safety on the Nation’s
        FMCSA must also issue site-specific plans for
                                                                             highways. Should the Secretary elect to initiate
        conducting border inspections to ensure that
                                                                             the pilot program, we will monitor and review the
        drivers entering the country are properly li­
                                                                             program and submit interim and final reports to
        censed and that trucks displaying a valid Com­
                                                                             the Secretary and Congress, as required.
        mercial Vehicle Safety Alliance safety inspection




                     In Focus: Ensuring the Continued Safety of Nation’s Highways Under NAFTA’s Cross-Border Pilot Program    30


14039_001-044_Audits and Investigations.indd 30                                                                                     11/21/11 8:44 AM
                                                           Rail and Maritime Programs and
                                                                        Economic Analysis

        Audits                                                         In the first 7 months of fiscal year 2011, Amtrak’s
                                                                       operating loss of $238.8 million was $76.4 mil­
        May 31, 2011                                                   lion (24.2 percent) less than budget projections,
                                                                       and $24.4 million less than its actual operating
        Semiannual Report on Amtrak’s                                  loss for the first 6 months of fiscal year 2010. The
        Financial and Operating Performance                            less-than-budgeted operating loss was primarily
                                                                       due to less-than-expected expenses. Amtrak
        and Savings From Reform                                        projects that some of the savings achieved in the
        Mandated by the fiscal year 2010 Consolidated                  first half of the year will be maintained through
        Appropriations Act                                             the end of the fiscal year. The projected year-end
                                                                       operating loss is $506.9 million—$85.1 million
        Our semiannual report to the House and Senate                  (14.4 percent) less than budget projections, but
        Appropriations Committees provides an as­                      $87.0 million more than fiscal year 2010. Key
        sessment of Amtrak’s projected savings from                    performance indicators appear to be useful to
        operational reforms and year-to-date financial                 management in its efforts to improve services
        performance. The report also includes an update                and financial management.
        on Amtrak’s use of key performance indicators
        to improve company performance and assess
        progress of improvement initiatives.




                                                  Semiannual Report to Congress      31


14039_001-044_Audits and Investigations.indd 31                                                                        11/21/11 8:44 AM
        July 28, 2011                                                            September 14, 2011
        Financial Analysis of Transportation-                                    FRA’s Progress Implementing the
        Related Public Private Partnerships                                      Passenger Rail Investment and
        Self-initiated                                                           Improvement Act
                                                                                 Testimony before the Senate Subcommittee on
        Transportation-related Public Private Partner-                           Surface Transportation and Merchant Marine
        ships (PPP) have several financial disadvantages                         Infrastructure, Safety, and Security
        when compared to traditional public sector
        financing. However, certain private sector ef­                           The Assistant Inspector General for Rail,
        ficiencies can meaningfully offset PPPs’ cost                            Maritime, and Economic Analysis testified on
        disadvantages. PPPs have a higher cost of                                the progress the Federal Railroad Administration
        capital than traditional public financing, and they                      (FRA) has made in meeting its responsibilities
        incur certain tax obligations that do not exist for                      outlined in the Passenger Rail Investment and
        public entities. Principal among private sector                          Improvement Act (PRIIA). While FRA has made
        efficiencies that can offset cost disadvantages                          significant progress to improve its oversight of
        are those that lower new facility design and con­                        Amtrak, delays in implementing certain PRIIA
        struction costs, as well as efficiencies in revenue                      provisions—particularly finalizing the National
        generation. Innovative financing mechanisms,                             Rail Plan—significantly challenge FRA’s abil­
        such as those provided under the Transportation                          ity to improve and expand intercity passenger
        Infrastructure Finance and Innovation Act and                            rail. Without a final National Rail Plan, other
        DOT’s Private Activity Bonds, may also improve                           PRIIA requirements cannot be completed and
        PPPs’ financial attractiveness.                                          stakeholders’ roles are uncertain. Further, FRA
                                                                                 has obligated more than half of its $10 billion
        In addition, PPPs are not likely to significantly                        High-Speed Intercity Passenger Rail grant
        decrease the infrastructure funding gap because                          program budget for dozens of projects without
        private sector investment in transportation                              providing applicants detailed guidance on how
        through PPPs generally does not entail new or                            to prepare reasonable and reliable ridership and
        incremental funds. Ultimately, the difference                            revenue forecasts, public benefits valuations,
        in the relative values that PPP financing and                            and operating cost estimates. As a result, FRA
        conventional public financing can provide must                           cannot be sure that it based these awards on the
        be determined on a project-by-project basis                              relative value of competing projects, or that its
        after careful consideration of all factors, includ­                      high-speed rail investments are prudent.
        ing those such as the potential impacts of risk
        sharing arrangements or the ability of the private
        sector to deliver a project more expeditiously,
        which can be significant.




                                                  Rail and Maritime Programs and Economic Analysis      32


14039_001-044_Audits and Investigations.indd 32                                                                               11/21/11 8:44 AM
        September 22, 2011                                             Investigations
        Amtrak Faces Challenges Sustaining
        Increased Utilization of Its Heavy                             August 24, 2011

        Maintenance Facilities                                         Virginia Man and Tank Cleaning
        Mandated by the Passenger Rail Investment and                  Company Sentenced for Refuse Act
        Improvement Act of 2008                                        and Clean Water Act Violations
        Amtrak used part of its ARRA funding to increase               In the U.S. District Court, Norfolk, Virginia,
        its heavy maintenance workforce and more fully                 Jerry Askew, general manager for Marine
        use available capacity at two of its three heavy               Environmental Services, Inc. (MESI), and MESI
        maintenance facilities, including its largest facil­           were sentenced in connection to their guilty pleas
        ity at Beech Grove, Indiana. When ARRA funding                 to Refuse Act and Clean Water Act violations,
        expires in September 2011, Amtrak will no longer               respectively. Askew and MESI had previously
        be able to sustain this expanded workforce and                 admitted during their guilty pleas to the illegal
        will have to lay off the majority, if not all, of these        discharge of approximately 500,000 gallons of
        employees and incur costs associated with the                  contaminated ballast water into the Elizabeth
        layoffs. To help address this challenge, Amtrak                River and the Hampton Roads Sanitation District
        has decided to market its maintenance services                 sewer system, which are violations of the Refuse
        to other rail carriers to increase utilization and             Act and the Clean Water Act. MESI, a tank clean­
        generate new revenues through its Beech Grove                  ing company located in Portsmouth, Virginia,
        facility. We made two recommendations to the                   was the subcontractor hired by Bay Bridge
        FRA Administrator regarding Amtrak’s plans to                  Enterprises to remove fluids from the USS
        meet its workforce challenges and increase the                 Pawcatuck as part of a ship scrapping contract
        Beech Grove facility’s utilization. FRA concurred              with the U. S. Maritime Administration (MARAD).
        with both recommendations, and we consider                     MARAD’s contract required compliance with all
        those recommendations open pending comple­                     Federal, State, and local environmental laws and
        tion of FRA’s planned actions to address them.                 regulations.

                                                                       Askew was sentenced to 30 days incarcera­
                                                                       tion, 1 year supervised release, and a $15,000
                                                                       fine. MESI was sentenced to 5 years probation,
                                                                       a $10,000 fine, and was ordered to contribute
                                                                       $60,000 to a community service project associ­
                                                                       ated with the environmental maintenance of the
                                                                       Elizabeth River.




                                                  Semiannual Report to Congress      33


14039_001-044_Audits and Investigations.indd 33                                                                      11/21/11 8:44 AM
        This investigation was conducted jointly with
        the Environmental Protection Agency’s Criminal
        Investigations    Division,   Defense     Criminal
        Investigative Service, Naval Criminal Investigative
        Service, and Coast Guard Investigative Service.




                                                  Rail and Maritime Programs and Economic Analysis      34


14039_001-044_Audits and Investigations.indd 34                                                               11/21/11 8:44 AM
                                                  Financial and Information Technology


        Audits                                                          International Airport (KAIA). In support of this
                                                                        effort, API entered into a $19.6 million agreement
        April 6, 2011                                                   with FAA’s Logistics Center (AML) to provide ser­
                                                                        vices, including terminal surveillance equipment
        Cost in Support of the Kabul                                    and appropriate training, airport security equip­
        Afghanistan Airport Infrastructure                              ment and services, control tower refurbishment,
                                                                        and communications equipment.
        Improvement and Capacity Building
        Project Are Supported and Valid                                 At the request of AML, we conducted this audit
        Requested by FAA                                                on a reimbursable basis, focusing on the $19.6
                                                                        million agreement between API and AML. Our
        Under agreement with the U.S. Agency for                        objective was to determine if costs in support
        International Development, FAA’s Office of                      of the KAIA infrastructure and capacity build­
        International Aviation (API) received $25 million               ing project were supported and valid under the
        to carry out infrastructure and capacity build­                 terms and conditions of that agreement. Overall,
        ing improvements at the Kabul Afghanistan                       we found these costs to be supported and valid.




                                                   Semiannual Report to Congress      35


14039_001-044_Audits and Investigations.indd 35                                                                       11/21/11 8:44 AM
        April 15, 2011                                                     respects with generally accepted Government
                                                                           auditing standards.
        Quality Control Review on the
        Vulnerability Assessment of FAA’s                                  May 23, 2011
        Operational Air Traffic Control System                             Quality Control Review of Single Audit
        Requested by the Chairmen of the House                             on the Port Authority of New Jersey
        Transportation and Infrastructure Committee and
        its Subcommittee on Aviation                                       and New York
                                                                           Self-initiated
        FAA’s 21 Air Route Traffic Control Centers
        (ARTCC) are the major communication hubs for                       The Port Authority of New York and New Jersey
        flight plan routing and systems that provide radar                 expended approximately $311 million from
        and communication services to aircraft operat­                     DOT grant programs for the fiscal year ending
        ing above 18,000 feet. ATC systems communi­                        December 31, 2010. Deloitte & Touche ren­
        cate with one another via the same technology                      dered an unqualified (clean) opinion on the Port
        used for Internet communication, and FAA has                       Authority’s financial statements, and did not
        designed some support systems in its Mission                       question any costs concerning DOT programs.
        Support System Network (MSSN) with acces­                          Deloitte & Touche also rendered an unqualified
        sibility through the Internet.                                     opinion on each of DOT’s major programs (Federal
                                                                           Transit Cluster, Airport Improvement Program,
        Clifton Gunderson LLP, under contract to OIG,                      and the Highway Planning and Construction
        assessed ATC systems and networks located                          Program). However, Deloitte & Touche made
        at two FAA facilities in the continental United                    recommendations to correct internal control and
        States to determine whether the systems could                      compliance deficiencies that directly affect the
        be accessed by unauthorized users from inside                      Highway Planning and Construction Program.
        ATC facilities through MSSN. Clifton Gunderson
        concluded that they were unable to gain access                     We determined Deloitte & Touche’s work met the
        to FAA’s operational ATC systems. However, it                      requirements of generally accepted Government
        identified several weaknesses at the Air Route                     auditing standards, the Single Audit Act, as
        Traffic Control Centers: (1) information disclo­                   amended, and OMB Circular A-133. We found
        sure vulnerabilities, (2) inadequate system patch                  nothing to indicate that Deloitte & Touche’s
        levels and unsupported operating systems, (3)                      opinion on the Port Authority’s financial state­
        improper network configurations, and (4) com­                      ments or reports on the Port Authority’s internal
        munication system vulnerabilities.                                 controls and compliance were inappropriate or
                                                                           unreliable.
        OIG’s quality control review of Clifton Gunderson’s
        audit work disclosed no instances in which
        Clifton Gunderson did not comply in all material


                                                  Financial and Information Technology      36


14039_001-044_Audits and Investigations.indd 36                                                                         11/21/11 8:44 AM
        June 27, 2011                                                  also rendered an unqualified opinion on two
                                                                       major DOT programs: the Federal Transit Cluster
        Quality Control Review of Single Audit
                                                                       and Formula Grants for Other Than Urbanized
        on Dallas Area Rapid Transit                                   Areas Program.
        Self-initiated
                                                                       We determined Ernst & Young’s work met the
        The Dallas Area Rapid Transit (DART) expended                  requirements of generally accepted Government
        approximately $198 million from DOT grant                      auditing standards; the Single Audit Act of 1984,
        programs for the fiscal year ending September                  as amended; and OMB Circular A-133. We
        30, 2010. Deloitte & Touche, LLP, rendered an                  found nothing to indicate that Ernst & Young’s
        unqualified (clean) opinion on DART’s financial                opinion on NJT’s financial statements or reports
        statements, and did not question any costs con­                on NJT’s internal controls and compliance were
        cerning DOT programs. Deloitte & Touche also                   inappropriate or unreliable
        rendered an unqualified opinion on DOT’s major
        program, the Federal Transit Cluster.                          September 29, 2011

        We determined Deloitte & Touche’s work met the
                                                                       Audit of FAA’s Automatic Dependent
        requirements of generally accepted Government                  Surveillance-Broadcast System Security
        auditing standards; the Single Audit Act of 1984,              Requirements
        as amended; and OMB Circular A-133. We found
                                                                       Requested by the former Chairmen and
        nothing to indicate that Deloitte & Touche’s opin­
                                                                       Ranking Members of the House Committee
        ion on DART’s financial statements or reports on
                                                                       on Transportation and Infrastructure and Its
        DART’s internal controls and compliance were
                                                                       Subcommittee on Aviation
        inappropriate or unreliable.

        August 24, 2011                                                Concerns over the security of the Automatic
                                                                       Dependent Surveillance-Broadcast (ADS-B)
        Quality Control Review of Single Audit                         system—an important part of FAA’s plans for
        on the New Jersey Transit Corporation                          NextGen—prompted our audit. Our objectives
        Self-initiated                                                 were to determine (1) whether FAA’s contract
                                                                       for ADS-B’s development properly specifies the
        The New Jersey Transit Corporation (NJT) ex­                   system’s security requirements and if the con­
        pended approximately $715 million from DOT                     tractor has satisfied them, including security risk
        grant programs for the fiscal year ending June                 identification and mitigation, and (2) whether the
        30, 2010. Ernst & Young, LLP, rendered an un­                  contractor follows FAA’s security architecture in
        qualified (clean) opinion on New Jersey Transit’s              its development of ADS-B. Because this report
        financial statements, and did not question any                 contains sensitive security information, it is not
        costs concerning DOT programs. Ernst & Young                   publicly available.


                                                  Semiannual Report to Congress      37


14039_001-044_Audits and Investigations.indd 37                                                                       11/21/11 8:44 AM
        September 29, 2011                                programs. The major DOT programs tested by the
                                                          Auditor General included (1) the Highway Planning
        Quality Control Review of Single Audit
                                                          and Construction Program, (2) the Federal Transit
        on the Michigan Department of                     Cluster, (3) the Federal Transit Services Cluster,
        Transportation                                    (4) the Formula Grants for Other Than Urbanized
        Self-initiated                                    Areas, and (5) AIP. We determined that the work
                                                          of the Auditor General was acceptable and, there­
        We conducted a quality control review of a single fore, met the requirements of generally accepted
        audit performed by the Auditor General of the Government auditing standards, the Single Audit
        State of Michigan on the Michigan Department Act, and OMB Circular A-133. We found nothing
        of Transportation’s (Michigan DOT) use of DOT to indicate that the Auditor General’s opinion on
        grants for the fiscal year ending September 30, Michigan DOT’s financial statements or reports on
        2010. During this period, Michigan DOT expend­ Michigan DOT’s internal controls and compliance
        ed approximately $2.7 billion from DOT grant were inappropriate or unreliable.




                                                  Financial and Information Technology      38


14039_001-044_Audits and Investigations.indd 38                                                         11/21/11 8:44 AM
                                                                 Acquisition and Procurement


        Audits                                                         procurements, provided FAA contracting offi­
                                                                       cials perform cost and price analyses to prevent
        May 19, 2011                                                   overpaying for noncompetitive awards.

        FAA Must Strengthen Its Cost and                               FAA did not perform effective cost and price
        Price Analysis Processes To Prevent                            analysis for 8 of the 25 contracts we reviewed
                                                                       (totaling about $11.6 million). As a result, FAA
        Overpaying for Noncompetitive                                  was unable to demonstrate that prices paid
        Contracts                                                      were reasonable and may have overpaid for two
        Self-initiated                                                 contracts by about $670,000. Specifically, FAA
                                                                       officials either used inadequate methods to de­
        In October 2009, OMB issued instructions to                    termine price reasonableness or did not perform
        Federal agencies on the use of high-risk con­                  price analyses. In addition, FAA does not ac­
        tracts. These instructions emphasized ensuring                 curately account for its noncompetitive contract
        price reasonableness for noncompetitive awards                 awards because it does not use a contract writ­
        and improving controls over the quality of con­                ing system capable of verifying data accuracy at
        tract award data. FAA’s Acquisition Management                 the time of award, as required by OMB. While
        System     (AMS)     permits      noncompetitive               FAA uses its procurement system, the Purchase




                                                  Semiannual Report to Congress      39


14039_001-044_Audits and Investigations.indd 39                                                                    11/21/11 8:44 AM
        Request Information System (PRISM), to record                 of information and diminishes OSPE’s ability
        new contract awards, we found that PRISM has a                to effectively perform acquisition duties. In ad­
        significant number of blank data fields where the             dition, the acquisition function lacks adequate
        extent of contract competition should be iden­                and comprehensive policies and procedures to
        tified. Further, 13 of 33 contracts we reviewed               effectively manage and perform its acquisition
        were incorrectly recorded as “Not Competed,”                  tasks. While OST is responsible for maintaining
        instead of “Competed Action” or “Not Available                the Transportation Acquisition Regulation (TAR)
        for Competition.”                                             and Transportation Acquisition Manual (TAM),
                                                                      long-standing staff shortages at OSPE have
        We made six recommendations calling on FAA to                 resulted in TAR and TAM policies remaining
        improve planning for completing price analyses;               out-of-date since 2005 and 2006, respectively.
        enhance pricing techniques and training; and                  Finally, OST lacks management controls to en­
        to implement guidance, controls, and improved                 sure its acquisition data are accurate, complete,
        software for recording new contract awards. FAA               and timely. Specifically, OST had inaccurate data
        fully concurred with all recommendations.                     entered into the Government-wide procurement
                                                                      information system and timely removal of former
        May 25, 2011                                                  OST employees’ access to DOT’s system for
                                                                      reporting procurement data.
        Weaknesses in the Office of the
        Secretary’s Acquisition Function Limit
                                                                      We made 15 recommendations to the Deputy
        Its Capacity To Support DOT’s Mission                         Secretary and the Senior Procurement Executive
        Self-initiated                                                to address these weaknesses. OST concurred
                                                                      with all but four of our recommendations and
        In fiscal year 2010, DOT spent $5.8 billion on                provided acceptable planned actions and imple­
        contracts for goods and services. The Office                  mentation dates.
        of the Secretary of Transportation (OST) is
        tasked with ensuring that all of DOT’s Operating              August 3, 2011
        Administrations use these funds effectively and
        safeguard them against fraud and abuse. Within
                                                                      FAA Policies and Plans Are Insufficient
        OST’s Office of the Senior Procurement Executive              To Ensure an Adequate and Effective
        (OSPE), which establishes DOT’s acquisition                   Acquisition Workforce
        policies and procedures, strong leadership and
                                                                      Self-initiated
        acquisition practices are critical.

                                                                      In October 2009, OMB issued an Acquisition
        However, OST’s current acquisition organiza­                  Workforce Development Strategic Plan, which
        tional structure creates an additional layer of               provides a structured approach to improving
        management and review that restricts the flow                 both the capacity and capability of the civilian



                                                  Acquisition and Procurement      40


14039_001-044_Audits and Investigations.indd 40                                                                    11/21/11 8:44 AM
        acquisition workforce. Acquisition planning is                 Investigations
        critical for FAA as it transitions to NextGen—a
        system intended to accommodate increased air                   May 13, 2011
        traffic. In 2009, FAA issued its initial Acquisition
        Workforce Plan on the Agency’s workforce needs                 City of Palmer (Alaska) Pays $857,000
        from fiscal year 2009 through fiscal year 2011,                False Claims Settlement Regarding
        and updated the plan in 2010 to project these
        needs through fiscal year 2014.
                                                                       Usage of Airport Funds
                                                                       The U.S. Department of Justice and the City
        The 2009 plan excluded acquisition employees                   of Palmer, Alaska, settled a qui tam civil action
        in a number of FAA’s lines of business, as well as             resulting in the city paying $813,000 to the
        its support contractor and service contract staff.             U.S. Government and $44,000 to the qui tam
        While FAA’s updated 2010 plan includes acquisi­                complainant for expenses associated with filing
        tion staff from additional lines of business, the              the action. According to the complaint, the city
        plan continues to omit both Federal and con­                   made false claims on FAA grant applications by
        tractor acquisition employees working on FAA’s                 attesting that it would collect rent at fair market
        support services contracts. Additionally, FAA did              value for the lease of airport property for non-
        not sufficiently address gaps in hiring and de­                aeronautical uses, as required by FAA rules.
        veloping its acquisition workforce and could not
        accurately determine whether it hired enough                   The Department of Justice intervened in this
        program managers and engineers for NextGen.                    qui tam civil action following an investigation
        FAA also did not fully implement the programs,                 by OIG. In the settlement agreement, the U.S.
        policies, and practices needed to ensure an                    Government alleged that the airport failed to col­
        adequate workforce.                                            lect rent at fair market value for airport property
                                                                       that was used for non-aviation purposes, such
                                                                       as for a municipal golf course and little league
        We made 11 recommendations aimed at                            field on airport property. Although the City of
        strengthening FAA’s acquisition workforce plan­                Palmer denies the allegations, they entered into
        ning. FAA concurred with 10 and partially con­                 the Settlement Agreement to avoid delay and
        curred with 1. Overall, FAA provided acceptable                the inconvenience and expense of a protracted
        actions for 8 recommendations and has begun                    litigation.
        actions to address many of the issues identified
        during our audit. We requested that FAA clarify                This investigation was conducted by OIG, with
        how it plans to meet the intent of the remaining               assistance from the Department of Justice.
        three recommendations.




                                                  Semiannual Report to Congress      41


14039_001-044_Audits and Investigations.indd 41                                                                       11/21/11 8:44 AM
                                                                          Departmentwide Issues


        Audits                                                     Of the 425 open recommendations, 42 (included
                                                                   in 31 reports) carry an estimated monetary
        April 29, 2011                                             benefit or cost savings totaling over $2 billion.
                                                                   As requested, we determined the three most
        Letter to Chairman Issa on OIG’s                           significant open recommendations—one from
        Open Audit Recommendations                                 each of the following reports: Air Traffic Control:
                                                                   Potential Fatigue Factors, Quality Control Review
        Requested by Rep. Darrell Issa, Chairman of the
                                                                   of Audited Consolidated Financial Statements
        House Committee on Oversight and Government
                                                                   for Fiscal Years 2010 and 2009, and National
        Reform
                                                                   Highway Traffic Safety Administration’s Alcohol-
                                                                   Impaired Driving Highway Traffic Safety Program.
        Between March 24, 2010, and April 13, 2011,
                                                                   Our determination was based on whether the
        we have closed 404 recommendations from 188
                                                                   recommendation would lead to significant safety
        audit reports. As of April 13, 2011, 425 open
                                                                   improvements, financial benefits, or increased
        recommendations, included in 136 audit reports,
                                                                   economy or efficiency of the program audited.
        remain open.




                                                  Departmentwide Issues      42


14039_001-044_Audits and Investigations.indd 42                                                                   11/21/11 8:44 AM
        May 4, 2011
        Ensuring ARRA Funds Are Spent
        Appropriately To Maximize Program
        Goals
        Testimony before the House Committee on
        Transportation and Infrastructure

        DOT’s Inspector General testified on key chal­
        lenges DOT faces in ensuring ARRA dollars are
        spent appropriately to maximize program goals.
        DOT faces substantial challenges in ensuring
        its High-Speed Intercity Passenger Rail and
        Transportation Investment Generating Economic
        Recovery programs meet ARRA’s reporting,
        transparency, and program and financial man­
        agement requirements, and that the significant
        ARRA dollars obligated under these programs
        are not wasted. OIG ARRA audits—which have
        primarily targeted FHWA, the largest custodian
        of DOT’s ARRA dollars, and FAA—can help in­
        form DOT regarding the critical decisions it must
        make in the future. Specifically, DOT needs to
        improve jobs data reporting and grant selection
        processes to meet ARRA’s transparency and
        accountability requirements and its goal to op­
        timize economic growth; strengthen project and
        financial oversight to ensure quality and maxi­
        mize efficiency; and take proactive measures to
        combat fraud, waste, and abuse.




                                                  Semiannual Report to Congress      43


14039_001-044_Audits and Investigations.indd 43                                            11/21/11 8:44 AM
                                                  Departmentwide Issues      44


14039_001-044_Audits and Investigations.indd 44                                    11/21/11 8:44 AM
                                                                   Other Accomplishments


        OIG’s other accomplishments and contributions extend beyond the legal reporting requirements of the
        Inspector General Act.

        April 10, 2011                                            May 12, 2011
        Presentations on Transportation                           Presentation on NextGen Audit Work
        Economics                                             The Director for Aviation Acquisition and Safety
        Two OIG economists spoke on transportation Audits participated in a panel discussion at the
        economics at the annual International Industrial Aviation Week Air Transportation Modernization
        Organization Conference. One presented OIG’s conference on our work related to FAA’s NextGen
        analysis of the causes of Amtrak delays, with a system. The Director highlighted the status of
        focus on the data development and statistical FAA’s efforts to integrate new instrument flight
        techniques used to conduct the analysis. The procedures with changes to airspace that affects
        other provided a discussion of another presenter’s multiple airports near large metropolitan areas.
        model of a corporation’s transportation decision A key theme of the panel discussion was the
        process. Conference attendees were primarily need for FAA to clearly articulate the benefits of
        academic economists specializing in analyses of NextGen technologies with respect to enhanc-
        industry structures, characteristics, and activities. ing operations, boosting capacity, and reducing
                                                              operating costs. Other panel members included
        May 11, 2011                                          representatives from FAA, airlines, and airports.
                                                              The conference was attended by leaders of FAA
        Presentation on Becoming a Higher                     and other Government agencies, aerospace com-
        Performing Organization                               panies, and airline industry executives.
        The Deputy Inspector General participated in a            June 2, 2011
        panel session—along with the Acting Associate
        Executive Director, Office of Human Resources,            Keynote Presentation on OIG Returns
        Securities and Exchange Commission (SEC)                  on Investments
        and the Director of Leadership, Education and
        Delivery Services, Internal Revenue Service—at            The Deputy Inspector General spoke at the
        the Partnership for Public Service’s Event of Ex-         Mid-Atlantic Intergovernmental Audit Forum.
        cellence before executives and emerging leaders           The keynote presentation consisted of audit and
        from over 20 Federal agencies. The Partnership            investigative processes, successes, and chal-
        singled out OIG, IRS, and SEC as higher perform-          lenges; how to streamline operations and have
        ing organizations. Panelists spoke on five key            greater impact. The Deputy Inspector General
        areas for motivating employees: a positive work           specifically focused on ways for us as auditors to
        environment, recognition, development opportu-            get more “bang for our buck” and demonstrate
        nities, meaningful work, and effective leadership.        the positive effects of having a strong audit com-
                                                                  munity. In attendance were auditors from the
                                                                  Federal, State, and local levels.


                                              Semiannual Report to Congress      45


14039_045-048_Other Accomplishments.indd 45                                                                     11/21/11 8:47 AM
        June 8, 2011                                           July 7, 2011
        Keynote Address at Summer Law Clerk Impact Magazine
        Program Kick Off                    OIG’s Investigations Office published its first issue
        The Inspector General provided the keynote ad-         of Impact to provide a behind-the-scenes look at
        dress at the Council of Counsels to the Inspector      some of the more significant investigations con-
        General’s (CCIG) kick off for the OIG Summer Law       ducted by OIG’s special agents. The publication
        Clerk Program, held at the Department of Home-         highlights the unique nature of our investigative
        land Security in Washington, D.C. OIG interns          work in the areas of transportation safety, procure-
        from throughout the Federal Government came to         ment and grant fraud, consumer and workforce
        this event to learn more about the OIG community       fraud, and employee integrity. The publication
        and working in the public sector.                      also aims to further inform stakeholders of our
                                                               investigative efforts and raise public awareness of
        June 15, 2011                                          transportation fraud schemes.
        Presentation on NextGen Audit Work                     July 11, 2011
        The Deputy Assistant Inspector General for Avia-       Presentations at Excellence in
        tion and Special Programs spoke at the RTCA’s
        annual symposium on the challenges in delivering
                                                               Government Conference
        the promised benefits of FAA’s multi-billion dollar    The Deputy Inspector General and the Assis-
        NextGen initiative. The Deputy Assistant Inspec-       tant Inspector General for Aviation and Special
        tor General highlighted changes in the aviation        Programs participated as panelists in separate
        landscape, past and ongoing OIG work, and the          seminars at the Excellence in Government Con-
        factors for successfully managing NextGen and          ference in Washington, D.C. Attendees included
        delivering much needed benefits to airspace us-        Government executives.
        ers and airline passengers. A key theme of the
        presentation was the need for FAA to establish
                                                               The Deputy Inspector General participated on the
        metrics for how new investments can improve
                                                               “Creating a Performance Culture” panel, along
        the efficiency of air traffic operations and reduce
                                                               with the Government Practice Director at the Cor-
        costs for the FAA as well as the airlines. The
                                                               porate Executive Board; the Department of Edu-
        symposium was attended by leaders of U.S. and
                                                               cation’s Deputy Secretary; and the Department of
        foreign aerospace companies, airline industry
                                                               Treasury’s Assistant Secretary for Management,
        executives, trade associations, and various Gov-
                                                               Chief Financial Officer, and Chief Performance
        ernment agencies, including the Department of
                                                               Officer. The Deputy Inspector General described
        Defense and the National Aeronautics and Space
                                                               OIG’s efforts to elevate Agency performance—
        Administration.
                                                               including 360 reviews, mentoring, Impact, and
                                                               efforts to streamline internal processes—and how


                                               Other Accomplishments      46


14039_045-048_Other Accomplishments.indd 46                                                                    11/21/11 8:47 AM
        the Agency measures the success of these ef-               Washington, D.C. Audit matrixing aims to lever-
        forts.                                                     age the knowledge of auditors with acquisition
                                                                   and contracting expertise to assist other audit
        The Assistant Inspector General participated in            groups that specialize in reviews of specific
        the “Risk: Rewards and Lessons” seminar along              Department programs. Combining acquisition
        with the Deputy Chief of Naval Operations. The             expertise with program auditors’ understanding
        seminar addressed questions on how leaders                 of specific programs produces more robust and
        can create a climate where people feel free to             relevant audit findings and recommendations
        take reasonable risks in pursuit of innovation             related to acquisitions and contracts. Confer-
        and improved performance, and how agencies                 ence attendees included auditors from across
        create systems for learning from mistakes in               all Federal Inspectors General offices and the
        an unthreatening environment. The Assistant                Federal audit community.
        Inspector General discussed the importance of
        good communication up and down the ranks, the              September 13, 2011
        need for leaders to be open to criticism, and the          Presentation on SWIM Audit Work
        criticality of assessing risk carefully. The discus-
        sion also included aviation accident investigation         A Program Director, Aviation and Special Pro-
        findings of risks that were not properly mitigated,        gram Audits, participated on a panel at the
        and efforts by FAA to improve its climate and              Avionics Magazine’s first “Avionics for NextGen”
        systems to better manage risky ventures, such              conference, held in Atlantic City, New Jersey. The
        as NextGen, based on our audit findings and                Program Director spoke on our work on FAA’s
        recommendations.                                           System Wide Information Management (SWIM)
                                                                   program, a key NextGen integrated technology
        September 9, 2011
                                                                   system, on which we reported on June 15, 2011.
        Presentation on Leveraging Contracting                     Participants included professionals from the
        Expertise                                                  avionics industry, major airlines, aviation trade
                                                                   associations, the military, and large consulting
        A Program Director, Acquisition and Procure-               firms. Other panelists included the Assistant
        ment Audits, spoke on audit matrixing at the               Director of the Joint Planning and Development
        Federal Audit Executive Council’s Training                 Office, and executives from Boeing, MITRE, and
        Conference, The Future of Accountability,” in              Accenture.




                                              Semiannual Report to Congress      47


14039_045-048_Other Accomplishments.indd 47                                                                      11/21/11 8:47 AM
                                              Other Accomplishments      48


14039_045-048_Other Accomplishments.indd 48                                    11/21/11 8:47 AM
                                                           Work Planned and In Progress


        This section describes OIG’s work planned or in progress for October 1, 2011, through March 31, 2012.
        The work focuses on the Department’s Strategic Plan and its core missions of transportation safety
        and mobility, and responds to requests by Administration officials and Congress. We take into account
        the need to support DOT’s most critical programs and to ensure that the Department’s resources are
        protected from fraud and waste.




        AVIATION AND SPECIAL PROGRAMS
        IN PROGRESS

        FAA’s Air Traffic Safety Action Program              at lower costs than FAA could otherwise provide.
                                                             The Committee noted that it has been nearly a
        (ATSAP)
                                                             decade since OIG last evaluated the program,
        At the request of the Chairmen and Ranking Mem­ and that another review of the program’s safety
        bers of the Senate Committee on Commerce, Sci­ benefits, costs, and overall value to users would
        ence, and Transportation and its Subcommittee be beneficial.
        on Aviation Operations, Safety, and Security as
        well as the Ranking Member of the House Trans­ FAA Implementation of RTCA’s
        portation and Infrastructure Subcommittee on
        Aviation, we are assessing FAA’s implementation
                                                             NextGen Task Force Recommendations
        of ATSAP and identifying any improvements At the request of the former Chairmen and Ranking
        necessary for FAA to maximize program benefits. Members of the House Committee on Transporta­
        ATSAP is a voluntary safety reporting program for tion and Infrastructure, and its Subcommittee on
        employees at all air traffic control facilities. The Aviation, OIG is assessing FAA’s implementation
        program encourages employees to report safety of recommendations regarding NextGen made
        and operational concerns to build awareness of by RTCA, an advisory committee made up of
        events that may lead to safety breakdowns so Government, industry, and academic organiza­
        that actions can be taken to reduce risk.            tions. Specifically, we are determining the extent
                                                                         to which FAA is (1) responding to RTCA’s recom­
        FAA’s Federal Contract Tower Program                             mendations, including budget adjustments and
                                                                         the establishment of mechanisms for continued
        At the request of the Chairman and Ranking                       industry collaboration, and (2) addressing poten­
        Member of the House Committee on Appro­                          tial barriers to FAA’s ability to successfully imple­
        priations, OIG is reviewing FAA’s Contract Tower                 ment the recommendations.
        Program, which employs contractors to provide
        air traffic control services at low activity airports


                                                     Semiannual Report to Congress      49


14039_049-066_Work Planned and in Progress.indd 49                                                                        11/21/11 8:47 AM
        DOT and FAA Oversight of Domestic                                FAA’s Air Traffic Facility Realignment
        Code-Share Relationships                                         and Consolidation Efforts
        At the request of the former Chairmen of the                     At the request of the former Ranking Members
        House Committee on Transportation and Infra­                     of the House Transportation and Infrastructure
        structure and its Subcommittee on Aviation, OIG                  Committee and its Subcommittee on Aviation,
        is conducting an audit of DOT and FAA oversight                  OIG is reviewing FAA’s air traffic facility realign­
        of code-share agreements between domestic                        ment and consolidation efforts. We are assessing
        air carrier partners. Our audit objectives are to                (1) FAA’s current plans for realigning and consoli­
        (1) examine DOT’s and FAA’s legal authorities to                 dating its air traffic facilities; (2) FAA’s process for
        review agreements between mainline air carriers                  evaluating the feasibility and cost effectiveness of
        and their regional partners, (2) assess FAA policies             these plans; and (3) the major cost, technical, and
        and procedures for ensuring one level of safety                  workforce challenges involved with realigning and
        between mainline carriers and their regional part­               consolidating air traffic facilities.
        ners, and (3) determine whether passengers have
        adequate information to make informed decisions
        when purchasing airline tickets.
                                                                         PHMSA Oversight of Hazardous
                                                                         Liquid Pipeline Operator Integrity
        FAA Implementation of the En Route                               Management Programs
        Automation Modernization (ERAM)                    In the United States, 324 operators control roughly
        System                                             175,000 miles of hazardous liquid pipelines, which
                                                           carry crude oil, refined petroleum products, and
        At the request of the former Chairman and Rank­ other highly volatile liquids. To reduce the likeli­
        ing Member of the House Appropriations Sub­ hood of pipeline failures, the Federal Government
        committee on Transportation, Housing and Urban requires pipeline operators to maintain integrity
        Development, and Related Agencies, OIG is management programs (IMP) for these pipelines.
        reviewing FAA’s implementation of ERAM—a $2.1 We are assessing the adequacy of PHMSA’s over­
        billion program to replace existing hardware and sight and enforcement of hazardous liquid pipeline
        software at facilities that manage high-altitude operators’ adherence to IMP requirements.
        NAS traffic. Our objectives are to (1) determine
        FAA’s progress in implementing ERAM and ad­
        dressing persistent software problems, and (2)
                                                           FAA Oversight of ARRA Expenditures
        identify the risks these problems present to FAA’s ARRA requires Inspectors General to conduct au­
        plans for implementing NextGen. OIG’s Office of dits of ARRA-funded projects to ensure the effec­
        Acquisition and Procurement Audits is support­ tive and efficient use of ARRA funds. Accordingly,
        ing this audit by evaluating ERAM’s design and OIG is assessing FAA’s oversight of ARRA grants
        administration for managing costs and achieving for airports to determine whether FAA is prevent­
        outcomes.

                                                     Work Planned and In Progress      50


14039_049-066_Work Planned and in Progress.indd 50                                                                           11/21/11 8:47 AM
        ing improper payments and ensuring ARRA funds         call into question the effectiveness of oversight
        are used only for authorized purposes.                and enforcement of airports’ compliance with
                                                              FAA’s Wildlife Hazard Mitigation Program. We
                                                              are assessing FAA’s (1) policies and guidance
        FAA Oversight of Aircraft Repair                      for monitoring, reporting, and mitigating wildlife
        Stations                                              hazards; (2) coordination with various Federal,
                                                              State, and local government agencies respon­
        At the request of the former Chairman of the House
                                                              sible for reducing wildlife hazards at airports and
        Transportation and Infrastructure’s Subcommittee
                                                              their vicinities; and (3) oversight and enforcement
        on Aviation, OIG is assessing U.S. airlines’ use of
                                                              of airports’ adherence to wildlife hazard reporting
        aircraft repair stations. The objectives of our audit
                                                              and assessment requirements and implementa­
        are to (1) examine changes that FAA has made
                                                              tion of wildlife hazard management plans.
        to its repair station oversight, (2) assess the ef­
        fectiveness of these changes in bolstering FAA’s
        oversight of both domestic and foreign repair FAA Oversight of Pilot Training and
        stations, and (3) identify challenges to effective Regional Airlines
        oversight that FAA still needs to address.
                                                              At the request of the Chairmen and Ranking Mem­
                                                              bers of the Senate Committee on Commerce, Sci­
        FAA’s Terminal Automation                             ence, and Transportation and its Subcommittee
        Modernization Program                                 on Aviation Operations, Safety, and Security; the
                                                              then Chairman of the House Transportation and
        FAA plans to invest about $1 billion through 2018
                                                              Infrastructure’s Subcommittee on Aviation; and
        to modernize terminal automation systems that
                                                              Representatives Louise Slaughter, Christopher
        controllers rely on to manage air traffic near air­
                                                              Lee, and Brian Higgins, OIG is assessing FAA’s
        ports. This effort is key to replacing aging equip­
                                                              oversight of pilot training and regional airlines
        ment and achieving FAA’s goals for NextGen.
                                                              following the February 2009 crash of Colgan Air
        Our audit objective is to determine whether FAA’s
                                                              3407. The requesters expressed concern that
        acquisition strategy for terminal modernization ef­
                                                              FAA’s safety regulations and oversight of air car­
        fectively addresses technological and operational
                                                              rier pilot training may not be effective. Accordingly,
        risks.
                                                              we are assessing (1) FAA’s oversight for air carrier
                                                              pilot training and proficiency programs, and (2)
        FAA Implementation of the Wildlife                    the process and data FAA and air carriers use to
                                                              evaluate the competence and qualifications of
        Hazard Mitigation Program
                                                              pilots when they are hired.
        In January 2009, US Airways flight 1549 incurred
        multiple bird strikes and was forced to land in the
        Hudson River. This accident and similar incidents



                                                     Semiannual Report to Congress      51


14039_049-066_Work Planned and in Progress.indd 51                                                              11/21/11 8:47 AM
        FAA and Air Carriers Efforts To                                  to each Part 121 air carrier; and (3) evaluate FAA’s
                                                                         use of other surveillance processes to supplement
        Enhance Safety in Response to the
                                                                         the inspections performed by assigned oversight
        Colgan Accident                                                  offices.

        At the request of the Chairman and Ranking
        Member of the House Committee on Transporta­                     FAA’s Methodologies To Measure,
        tion and Infrastructure, we are reviewing FAA and                Rate, and Mitigate Risks of Losses of
        industry efforts to enhance safety. Since the fatal
        crash of Colgan Air flight 3407 in February 2009,                Standard Separation
        FAA, Congress, and air carriers have recognized
                                                                         At the request of the Chairmen and Ranking Mem­
        the need for safety initiatives in pilot fatigue, train­
                                                                         bers of the Senate Committee on Commerce, Sci­
        ing, and professionalism. These initiatives, while
                                                                         ence, and Transportation; its Subcommittee on
        ongoing, were not completed during FAA’s Call
                                                                         Aviation Operations, Safety, and Security; and the
        to Action on Airline Safety and Pilot Training and
                                                                         Ranking Member of the House Transportation and
        subsequently became requirements under the
                                                                         Infrastructure Subcommittee on Aviation, we are
        Airline Safety and FAA Extension Act of 2010. Ac­
                                                                         assessing how operational errors are categorized
        cordingly, we are (1) examining FAA and industry
                                                                         and how their risks are mitigated. Operational er­
        progress in implementing elements of the Airline
                                                                         rors are occur when a controller fails to ensure re­
        Safety and FAA Extension Act of 2010, and (2)
                                                                         quired separation between two aircraft—a serious
        identifying any challenges to completing these
                                                                         threat to aviation safety. The number of recorded
        actions.
                                                                         operational errors has risen dramatically over the
                                                                         past few years, but FAA has not clearly explained
        FAA’s Aviation Safety Inspector and                              the reasons for this rise. Accordingly, we are
                                                                         evaluating the effectiveness of FAA’s policies and
        Analyst Staffing
                                                                         processes to (1) collect, measure, evaluate, and
        The Airline Safety and FAA Extension Act of 2010                 report separation losses, and (2) mitigate the risk
        directed OIG to review staffing levels for FAA’s                 of separation losses.
        aviation safety inspectors and operations research
        analysts. The 2009 Colgan crash raised concerns                  Management of the Metropolitan
        about the experience and numbers of inspectors
        and analysts that have been assigned to oversee                  Washington Airports Authority (MWAA)
        air carriers and review inspection data. Accord­
                                                                         At the request of Congressmen Frank R. Wolf
        ingly, our audit objectives are to (1) evaluate FAA’s
                                                                         and Tom Latham, OIG is reviewing whether (1)
        process for assigning Aviation Safety Inspectors
                                                                         the policies and processes under which MWAA
        (ASIs) and Operations Research Analysts (ORAs)
                                                                         operates comply with the terms of the law and the
        to each Part 121 air carrier; (2) assess the number
                                                                         lease between DOT and MWAA, and (2) MWAA’s
        and level of experience of ASIs and ORAs assigned
                                                                         policies and processes are sufficient to ensure


                                                     Work Planned and In Progress      52


14039_049-066_Work Planned and in Progress.indd 52                                                                       11/21/11 8:47 AM
        accountability and transparency of its board’s                   During our 2009 audit of the Research and Innova­
        activities. OIG’s Office of Acquisition and Procure­             tive Technology Administration’s (RITA) Intelligent
        ment Audits is supporting this audit by evaluating               Transportation Systems Joint Program Office,
        MWAA’s process for awarding contracts and its                    we identified nearly $20 million in inactive RD&T
        compliance with the Metropolitan Washington                      funds—most of which remained on old grants
        Airports Act of 1986.                                            and agreements. These grants and agreements
                                                                         also involved FHWA and FTA. We will assess the
        PLANNED                                                          effectiveness of DOT’s policies and procedures
                                                                         for identifying and de-obligating unneeded funds
        Aviation Safety Information Analysis                             remaining on old RD&T grants and agreements.

        and Sharing (ASIAS) System
                                                                         Review of FAA Policy Regarding Use of
        The February 2009 Colgan crash prompted
        Congress to mandate that OIG assess the feasi­
                                                                         Unmanned Aerial Systems (UAS)
        bility of FAA establishing a comprehensive reposi­               Federal and State governments, along with private
        tory containing data from multiple sources that                  sector companies use evolving UAS technology,
        is accessible by aviation safety inspectors and                  making it an important issue for developing Next-
        analysts. FAA has developed the Aviation Safety                  Gen. We plan to conduct an audit to (1) determine
        Information Analysis and Sharing (ASIAS) sys­                    FAA’s progress with developing policies for UAS
        tem, which contains data from numerous safety                    use in the NAS and whether these efforts are
        databases, including voluntary programs, such                    aligned with NextGen goals, and (2) assess how
        as the Aviation Safety Action Program (ASAP). In                 FAA plans to mitigate technological and safety
        the past, access to the data has been limited. We                risks and meet the needs of other agencies.
        plan to conduct an audit to (1) determine status of
        FAA’s efforts to implement ASIAS; (2) how FAA is
        using the system to assist in oversight of air car­              Review of Updates to FAA’s Controller
        riers; and (3) whether aviation safety inspectors                Workforce Plan (CWP)
        and operational research analysts have access to
        the ASIAS data.                                                  FAA was directed by Congress in 2003 to prepare
                                                                         a plan to ensure adequate staffing within the
                                                                         controller workforce, in response to the antici­
        DOT’s Oversight of Inactive Research,                            pated surge in air traffic controller retirements. In
        Development, and Technology Grants                               December 2004, FAA issued the first Controller
                                                                         Workforce Plan outlining FAA’s plans for ad­
        and Interagency Agreements
                                                                         dressing that challenge. The plan detailed FAA’s
        DOT spends nearly $1 billion annually on research,               strategy for hiring approximately 12,500 new
        development, and technology (RD&T) through                       controllers to replace those controllers expected
        contracts, grants, and interagency agreements.                   to leave from 2004-2014. The CWP is updated by



                                                     Semiannual Report to Congress      53


14039_049-066_Work Planned and in Progress.indd 53                                                                        11/21/11 8:47 AM
        FAA on an annual basis and outlines various ini­                 Review of PHMSA’s Oversight and
        tiatives for increasing controller productivity and
                                                                         Enforcement of the State Pipeline
        for decreasing on-the-job training (OJT) time and
        costs. We plan conduct an audit to (1) evaluate                  Safety Program
        FAA’s progress in implementing key staffing and
                                                                         The September 2010 pipeline explosion in
        training elements of its CWP, including FAA’s
                                                                         San Bruno, California, that killed 8 people and
        streamlined hiring process, tower simulator im­
                                                                         destroyed 37 homes, as well as other recent
        provements, and multi-path hiring and training;
                                                                         accidents, calls into question the effectiveness
        and (2) assess the effectiveness of other initiatives
                                                                         of Federal and state oversight and enforcement
        designed to increase controller productivity such
                                                                         of pipeline operators’ compliance with federally
        as FAA’s plan to stop placing newly hired control­
                                                                         mandated safety requirements. We plan to
        lers at the most complex facilities.
                                                                         conduct an audit to evaluate the effectiveness
                                                                         of PHMSA’s (1) policies and processes for
                                                                         authorizing states to oversee and enforce
                                                                         Federal pipeline safety regulations; (2) program
                                                                         oversight to ensure Federal funds are used for
                                                                         eligible activities in accordance with Federal
                                                                         law, regulations, and state certifications or
                                                                         agreements; and (3) program oversight to ensure
                                                                         that states are effectively executing their pipeline
                                                                         safety oversight and enforcement responsibilities
                                                                         in accordance with state certifications or
                                                                         agreements.




                                                     Work Planned and In Progress      54


14039_049-066_Work Planned and in Progress.indd 54                                                                       11/21/11 8:47 AM
        HIGHWAY AND TRANSIT PROGRAMS
        IN PROGRESS
        FTA Oversight of the Dulles Corridor                             tion (ODI) processes for identifying and addressing
                                                                         vehicle safety defects. Our audit objectives are to
        Metrorail Project
                                                                         (1) assess ODI’s industry-wide UA-related com­
        OIG is conducting an audit of FTA’s oversight of                 plaints and investigations and ODI’s investigation
        Phase 1 of the Dulles Corridor Metrorail Project                 of these complaints; (2) ODI’s tools, processes,
        in the Washington, D.C., metropolitan area. This                 and resources for identifying and addressing
        infrastructure project involves a Federal invest­                potential safety defects; and (3) comparative data
        ment of $900 million through FTA’s New Starts                    on defect investigation, recall processes, and po­
        program, including $77.3 million in ARRA funds.                  tential best practices from four foreign countries
        Our audit objectives are to (1) determine whether                and their coordination with ODI.
        FTA’s oversight of the Metropolitan Washington
        Airports Authority’s process to test the 30-year­ FHWA Oversight of High-Dollar ARRA
        old foundations was sufficient to resolve all safety
        concerns, and (2) if FTA’s oversight activities ef­ Highway Projects
        fectively addressed significant project schedule,
                                                             OIG is conducting an audit to determine whether
        cost, and funding risks.
                                                             FHWA’s oversight of selected high-dollar ARRA
                                                             projects has resulted in project compliance with
        FTA’s Challenges to Improving                        key Federal-aid highway requirements for cost,
                                                             quality, and construction schedule. ARRA pro­
        Oversight of Rail Transit Safety
                                                             vided $27.5 billion to FHWA for ARRA highway
        OIG is conducting an audit of issues that may infrastructure investments and requires FHWA to
        impact the Department’s legislative proposal to ensure that states receiving ARRA funds adhere
        develop and implement an enhanced Federal role to all Federal-aid highway program requirements.
        in oversight of rail transit safety. We are identifying
        future challenges FTA would likely face in develop­              FMCSA’s Response to NTSB
        ing and implementing enhanced rail transit safety
        oversight, and actions FTA could take now, under                 Recommendations on New Entrant
        its current authority, to improve safety oversight.              Safety Assurance Program
                                                                         OIG is conducting an audit evaluating FMCSA’s
        NHTSA’s Office of Defects                                        response to NTSB recommendations addressing
        Investigation                                                    weaknesses in Federal oversight of passenger
                                                                         carriers identified through an investigation into a
        At the request of Congress and the Secretary, OIG                2008 motor coach crash near Victoria, Texas, that
        is reviewing NHTSA’s Office of Defects Investiga­


                                                     Semiannual Report to Congress      55


14039_049-066_Work Planned and in Progress.indd 55                                                                      11/21/11 8:47 AM
        killed one passenger and injured 47 others. Our                  charter operator is interested in providing the
        audit objectives are to (1) assess FMCSA’s efforts               service. Our audit objectives are to (1) assess the
        to detect and deter reincarnated motor carriers;                 impact of the charter bus regulation on the cost,
        (2) revise regulations, implement new rulemak­                   availability, and quality of charter services related
        ings, or obtain increased statutory authority to                 to specific events and markets, and (2) evaluate
        strengthen passenger carrier safety; and (3) de­                 FTA’s oversight of the charter service regulation.
        velop the capability to better identify and track
        motor carriers whose vehicles do not comply with
        Federal safety requirements.
                                                                         FTA’s Regional Oversight of
                                                                         Transit Grants
        OST’s Transportation Investments                                 OIG is assessing FTA’s regional oversight of tran­
        Generating Economic Recovery                                     sit grants to determine whether the efforts ensure
                                                                         proper stewardship of Federal funds and prevent
        (TIGER) Grants                                                   fraud, waste, and abuse. For each selected
        OIG is conducting an audit of DOT’s oversight of                 regional office, we are assessing the use of key
        the TIGER discretionary grant program. ARRA                      oversight tools to identify grantees’ management
        created this $1.5 billion program to fund surface                weaknesses and make funding decisions, and
        transportation infrastructure projects, to be ad­                evaluate efforts to ensure that grantees correct
        ministered by the Office of the Secretary (OST).                 management weaknesses.
        Our audit objectives are to (1) evaluate OST’s
        management of the TIGER program, including NHTSA’s Highway Safety Grants to the
        performance measures for determining the eco­
        nomic and transportation-related impact of each
                                                           State of Mississippi
        project, and (2) each operating administration’s OIG is conducting an audit of the State of Mis­
        oversight of its TIGER projects.                   sissippi, Department of Public Safety, Office of
                                                           Highway Safety’s (MOHS) management of high­
        FTA’s Charter Bus Regulation                       way safety grants. Over the past 4 years, NHTSA
                                                           provided more than $57 million in highway safety
        In a report accompanying the fiscal year 2010 grants to the MOHS, and in 2011, NHTSA placed
        appropriations bill for the Department of Trans­ the Mississippi Highway Safety Program on its
        portation, Housing and Urban Development, and “high risk” list. Our audit objectives are to (1) de­
        Related Agencies, the Senate Committee on termine whether MOHS has sufficient manage­
        Appropriations directed the OIG to conduct an ment controls to ensure its compliance with Fed­
        audit of FTA’s implementation of the charter bus eral grant requirements and proper expenditure
        regulation. This regulation generally prohibits a of Federal grant funds, and (2) assess NHTSA’s
        transit agency that receives Federal transit grant actions designed to ensure MOHS’s compliance
        funds from providing charter services, such as with Federal grant requirements.
        shuttle buses to sporting events, when a private

                                                     Work Planned and In Progress      56


14039_049-066_Work Planned and in Progress.indd 56                                                                        11/21/11 8:47 AM
        FHWA’s Full Oversight of ARRA                                    PLANNED
        Projects
                                                                         Dulles Corridor Metrorail
        OIG is conducting an audit of FHWA’s oversight                   Project/Phase 2
        of ARRA. FHWA has undertaken “full oversight”
        of a number of ARRA projects. By undertaking                     At the request of Representatives Wolf and
        full oversight, FHWA retains project level ap­                   Latham, the OIG plans to conduct an audit of
        proval responsibilities regarding project design,                phase 2 of the Dulles Corridor Metrorail Project
        plans, specifications, and estimates and contract                in Northern Virginia. The requestors’ concerns are
        awards and inspections—responsibilities typi­                    that MWAA may not have the management or fi­
        cally delegated to the states in accordance with                 nancial capabilities to complete the entire project
        Stewardship and Oversight Agreements. Our                        on-time and on-budget, and without dramatic Toll
        audit objectives are to (1) assess FHWA’s guid­                  Road increases. We plan to determine whether
        ance for conducting full oversight during project                MWAA has (1) evaluated risks that could impact
        construction and (2) determine whether FHWA’s                    the project’s cost, schedule, or local funding
        implementation of its full oversight guidance re­                sources; and (2) implemented mitigation strate­
        sults in ARRA projects meeting quality and cost                  gies to address the identified risks.
        requirements.
                                                                         Cross-Border Trucking
        FHWA’s Stewardship and Oversight
                                                                         The OIG plans to conduct an audit of FMCSA’s
        Agreements                                                       North American Free Trade Agreement (NAFTA)
                                                                         cross-border trucking pilot program. This audit is
        OIG is assessing whether FHWA’s stewardship
                                                                         required by Section 6901 of the U.S. Troop Readi­
        and oversight agreements clearly define FHWA
                                                                         ness, Veteran’s Care, Katrina Recovery, and Iraq
        and state oversight roles and responsibilities,
                                                                         Accountability Act, 2007. Based on the Section
        and address laws and regulations. Federal law
                                                                         6901 requirements, we plan to assess adverse
        requires FHWA and each state to enter into an
                                                                         effects on motor carrier safety, Federal and State
        agreement documenting the extent to which the
                                                                         monitoring and enforcement activities, compli­
        state assumes FHWA’s responsibilities under 23
                                                                         ance with applicable laws and regulations, and
        U.S.C.
                                                                         the adequacy of the sample of Mexcio-domiciled
                                                                         carriers in the pilot program.




                                                     Semiannual Report to Congress      57


14039_049-066_Work Planned and in Progress.indd 57                                                                      11/21/11 8:47 AM
        RAIL AND MARITIME PROGRAMS AND ECONOMIC ANALYSIS
        IN PROGRESS

        High-Speed Rail Program State-Freight                            an audit to evaluate the reasonableness of DOT’s
                                                                         policies and procedures to monitor the solvency
        Railroad Access Agreements
                                                                         of the Highway Trust Fund, and to compare these
        OIG is conducting an audit to (1) evaluate the ex­               policies and procedures to those used by FAA to
        tent to which FRA’s interim guidance for railroad                manage the Airport and Airway Trust Fund.
        access agreements includes provisions intended
        to ensure those agreements support High-Speed Causes of Amtrak Delays
        Intercity Passenger Rail (HSIPR) program goals,
        and (2) whether final railroad access agreements OIG constructed an econometric model to de­
        comply with the requirements set forth in FRA’s termine the causes of delays on Amtrak, and to
        interim guidance.                                      assign relative importance to the different causes.
                                                               Among the causes we are investigating are ca­
                                                               pacity limitations and the effects of different host
        High-Speed Intercity Rail Forecasting
                                                               railroads. In addition, we are identifying the loca­
        OIG is conducting an audit to identify key consid­ tions at which capacity limitations are the most
        erations in the assessment of high-speed intercity severe, and are using the model to simulate the
        rail (HSIPR) project viability. Specifically, we iden­ minutes of delay related to those limitations.
        tified: (1) the elements with the greatest impact on
        ridership and revenue forecasts, public benefits                 FRA and Amtrak Implementation of
        valuations, and operating cost estimations; (2) the
        level of analytical detail required for these viability          PRIIA Provisions
        analysis components at various phases in the
                                                                         As required by PRIIA Section 221, OIG is con­
        development of a HSIPR proposal; and (3) critical
                                                                         ducting an audit to (1) evaluate FRA’s progress in
        issues that HSIPR proposal evaluators should be
                                                                         implementing its PRIIA responsibilities; (2) assess
        aware of in reviewing these components of viabil­
                                                                         the effectiveness of FRA’s process for implement­
        ity analyses.
                                                                         ing grants, studies, and oversight as required by
                                                                         PRIIA; and (3) determine the impact of PRIIA’s
        Adequacy of Measures Taken To                                    implementation on rail stakeholder operations.
        Address the Solvency of the Highway
        Trust Fund
        At the request of the Ranking Member of the
        Senate Budget Committee, OIG is conducting


                                                     Work Planned and In Progress      58


14039_049-066_Work Planned and in Progress.indd 58                                                                      11/21/11 8:48 AM
        FRA Progress in Developing a Grants                              PLANNED
        Management Framework
                                                                         Amtrak Semiannual Report on
        The new High-Speed Intercity Passenger Rail                      Operational Savings
        (HSIPR) program greatly expanded FRA’s re­
        sponsibilities. One new responsibility requires                  As requested by Congress in the annual ap­
        the Agency to distribute $10.5 billion in grants to              propriations process, OIG is issuing semiannual
        states for passenger rail-related projects in a short            reports to the House and Senate Committees on
        amount of time. We are (1) evaluating FRA’s grant                Appropriations on Amtrak’s savings from opera­
        management framework; (2) evaluating FRA’s                       tional reforms and financial performance.
        process for determining its workforce needs; and
        (3) identifying the challenges FRA faces in award­
                                                                         Amtrak Annual Budget and 5-Year Plan
        ing, obligating, and disbursing funds to states.
                                                          Pursuant to Section 204 of the Passenger Rail
        MARAD’s Oversight and Coordination Investment and Improvement Act of 2008, we will
                                                          review the annual budget and the 5-year financial
        of Port Infrastructure Development                plans prepared by Amtrak to determine whether
        Projects                                          they meet the requirements of the Act and furnish
                                                          any relevant findings to the Committee on Trans­
        Since 2003, MARAD has engaged in port infra­ portation and Infrastructure of the House of Rep­
        structure development projects, with a role in resentatives, the Committee on Appropriations of
        providing oversight and coordination of projects, the House of Representatives, the Committee on
        acting as a central procurement organization, Commerce, Science, and Transportation of the
        leveraging Federal and non-Federal funding re­ Senate, and the Committee on Appropriations of
        sources, and streamlining environmental review the Senate.
        and permitting processes. OIG’s Office of Rail,
        Maritime, and Economic Analysis is evaluating
        MARAD’s oversight and risk management of port Amtrak’s Financial Accounting and
        infrastructure development projects. OIG’s Office Reporting System
        of Acquisition and Procurement Audits is evalu­
        ating MARAD’s oversight of port infrastructure As required by Section 203(b) of PRIIA, OIG
        projects’ contract awards and administration.     plans to conduct a review of Amtrak’s new PRIIA-
                                                          mandated financial accounting and reporting
                                                          system to determine whether it accomplishes the
                                                          purposes for which it was intended.




                                                     Semiannual Report to Congress      59


14039_049-066_Work Planned and in Progress.indd 59                                                                  11/21/11 8:48 AM
        FRA’s Progress in Implementing RSIA                              Implications of Airline Mergers on
        OIG is planning an audit to assess FRA’s imple­
                                                                         Small Communities
        mentation of the provisions of the Rail Safety OIG plans to conduct an audit to assess how
        Improvement Act (RSIA) of 2008. We plan to recently approved mergers may have affected
        evaluate FRA’s progress in implementing its RSIA service to small communities.
        responsibilities and determine the impact of RSIA’s
        implementation on rail stakeholder operations.




                                                     Work Planned and In Progress      60


14039_049-066_Work Planned and in Progress.indd 60                                                            11/21/11 8:48 AM
        FINANCIAL AND INFORMATION TECHNOLOGY

        IN PROGRESS
        Quality Control Review of Standards   gram and practices to determine their effective­
        for Attestation Engagements (SSAE-16) ness.
        Review of DOT’s Enterprise Services
                                              The United States Merchant Marine 

        Center
                                              Academy’s Technical Security Controls
	
        OIG is performing a quality control review of
        the audit performed by an independent public                     OIG is assessing the United States Merchant 

        accounting firm to (1) determine management’s                    Marine Academy’s (USMMA) technical security 

        description of the service organization’s systems                controls for its local area network (LAN) and Web
        are fairly presented; (2) controls are suitably de­              site. Our audit objectives are to (1) evaluate the
        signed; and (3) controls operate effectively during              implementation of USMMA’s LAN and Web site
        the period of October 1, 2010, to June 30, 2011.                 technical security controls intended to prevent
                                                                         intrusion and protect personally identifiable infor­
                                                                         mation, and (2) identify security vulnerabilities and
        Security Protection of Airmen Registry                           weaknesses.
        Systems
        OIG is assessing FAA’s registry systems for airmen
                                                                         Implementation of DOT’s Enterprise
        certification, rating, and authorization to (1) deter­           Architecture for Information Technology
        mine whether personally identifiable information                 Investment
        is secure from unauthorized use or access; (2)
        information in the registry systems is sufficient                OIG is performing a review of DOT’s development
        for managing aircraft registrations and airmen’s                 and implementation of an enterprise architecture
        records; and (3) registry contingency planning                   to direct future IT system development efforts.
        ensures FAA’s continued ability to accomplish its                Our audit objectives are to determine whether
        mission of aviation safety.                                      DOT (1) has established adequate baseline and
                                                                         target architectures; (2) has effective management
                                                                         practices, policies, and processes for developing,
        DOT’s Information Security Program
                                                                         implementing, maintaining, and overseeing the
        and Practices for Fiscal Year 2011                               program; and (3) is reporting actual results from
                                                                         the program.
        As mandated by the Federal Information Security
        Management Act of 2002, OIG is performing its
        annual review of DOT’s information security pro­



                                                     Semiannual Report to Congress      61


14039_049-066_Work Planned and in Progress.indd 61                                                                      11/21/11 8:48 AM
        Quality Control Review of DOT’s Fiscal                           whether or not FAA is identifying security risks
                                                                         and properly mitigating them.
        Years 2011 and 2010 Consolidated
        Financial Statements; and FAA’s,
                                                                         DOT’s Purchase Card Program
        SLSDC’s, and NTSB’s Financial
        Statements                                          OIG is performing an audit on the U.S. Department
                                                            of Transportation’s (DOT) purchase card program.
        OIG is performing a quality control review of the Issued via the General Services Administration’s
        audits performed by independent public account­ SmartPay® program, these cards offer a conve­
        ing firms to determine if the audits were performed nient and efficient way for government agencies
        in accordance with applicable auditing standards. to purchase a wide variety of goods and services.
                                                            In fiscal year 2010, Department employees made
                                                            more than $200 million in purchases with purchase
        Quality Control Reviews of Single                   cards. Recent OIG investigations have identified
        Audits on DOT Grantees                              internal control issues leading to instances of
                                                            fraud within the program. We are assessing the
        OIG is performing a quality control review of the
                                                            adequacy of controls established to prevent and
        audits performed by independent public account­
                                                            detect inappropriate or unauthorized use of DOT-
        ing firms on grant recipients’ use of DOT funds.
                                                            issued purchase cards.

        Security and Controls Review                                     FTA’s Improper Payment Controls
        Over FAA’s En Route Automation
                                                                         The Improper Payments Information Act of
        Modernization (ERAM)                                             2002 holds Federal agencies accountable for
        OIG is performing an Information Security Controls               preventing and detecting improper payments
        audit of FAA’s En Route Automation Modernization                 within their programs. More recent legislation has
        (ERAM) Program. ERAM will replace the 30-year                    implemented consequences for non-compliance
        old En Route Host computer and backup system,                    with statutory requirements for the reduction and
        as well as more than 800 controller workstations                 recovery of improper payments. The Department
        at FAA’s Air Route Traffic Control Centers nation­               of Transportation has identified FTA’s Formula
        wide. The program will facilitate reduced aircraft               Grant and Capital Investment Grant Programs
        separation and improved flight plan processing                   as susceptible to significant improper payments.
        by offering flexible routing options, provide safety             Ninety-nine percent of FTA’s ARRA funds were
        alerts to prevent collisions and congestion, and                 awarded through these programs. We are evaluat­
        enable controllers to better handle unplanned                    ing whether FTA has adequate internal controls to
        events. We are determining the effectiveness of                  prevent and detect improper payments to ARRA
        ERAM’s information security controls, including                  grant recipients.




                                                     Work Planned and In Progress      62


14039_049-066_Work Planned and in Progress.indd 62                                                                     11/21/11 8:48 AM
        PLANNED                                                           program and practices to determine their effec­
                                                                          tiveness.
        DOT’s Implementation of the
        Improper Payments and Elimination                                 Quality Control Review of Standards
        Act of 2010                                                       for Attestation Engagements (SSAE-
        OIG will review departmental compliance with                      16) Review of DOT’s Enterprise
        the act and evaluate efforts to prevent and re­                   Services Center
        duce improper payments.
                                                                          OIG will perform a quality control review of the
                                                                          audit performed by an independent public ac­
        DOT/NHTSA Drug Control Reporting                                  counting firm and (1) determine whether man­
                                                                          agement’s description of the service organiza­
        OIG will perform a review of the reasonableness
                                                                          tion’s systems are fairly presented; (2) controls
        of the FY 2011 DOT/NHTSA Drug Control Funds
                                                                          are suitably designed; and (3) controls operate
        and Performance Summary Report submitted to
                                                                          effectively from October 1, 2011, to June 30,
        the Office of National Drug Control Policy.
                                                                          2012.

        FHWA’s Improper Payment Controls
                                                                          DOT’s Common Operating
        OIG will perform a review of the controls imple­                  Environment Assessment (COE)
        mented by FHWA to prevent and detect improper
        payments to the states under the Federal Aid                      OIG will perform a review of the COE to (1) deter­
        Highway Program.                                                  mine the effectiveness of the Department’s COE
                                                                          processes and execution of those processes in
                                                                          supporting DOT and Operating Administrations,
        DOT’s Travel Card Program                                         and (2) evaluate the preparedness of key COE
        OIG will perform a review of DOT’s controls to                    processes for continuous monitoring.
        prevent and detect the improper use of travel
        cards.                                                            FAA’s Cyber Security Management
                                                                          Center (CSMC)
        DOT’s Information Security Program
                                                                          OIG will perform a review of the CSMC to (1)
        and Practices for Fiscal Year 2012                                determine whether CSMC has an effective cyber
        As mandated by the Federal Information Secu­                      incident response program, and (2) if CSMC
        rity Management Act of 2002, OIG will perform                     has implemented adequate security controls.
        its annual review of DOT’s information security                   quested




                                                     Semiannual Report to Congress      63


14039_049-066_Work Planned and in Progress.indd 63                                                                      11/21/11 8:48 AM
        ACQUISITION AND PROCUREMENT
        IN PROGRESS

         FHWA Oversight of Federal-aid State                              DOT’s Administration of the
         ARRA Contract Award Practices                                    Disadvantaged Business Enterprise
         ARRA added $26.7 billion to FHWA’s $40 billion
                                                                          (DBE) Program
         a year Federal-aid highway program funding for                   OIG is reviewing DOT’s management and over­
         state DOT highway investment and improvement                     sight of its DBE program. We are assessing
         projects. OIG is determining whether FHWA’s                      DOT’s and states’ policies, internal controls,
         oversight of state-level contract award practices                and management of the program to determine
         is adequate to ensure compliance with laws and                   whether they are adequate to ensure that only
         regulations. We are reviewing FHWA and state                     eligible firms are certified as DBEs and funds are
         DOT policies and procedures, surveying FHWA                      effectively utilized to meet the program’s objec­
         division offices on state and FHWA procurement                   tives.
         oversight practices, and analyzing a statistical
         sample of ARRA contract bidding and award
         data.                                                            Departmental Review Processes
                                                                          for FAA’s High-Risk Major Systems
         Management and Oversight of FAA’s                                Acquisitions
         Systems Engineering 2020 Contracts                               FAA’s fiscal year 2012 request for its capital
         At the request of the Chairman of the House                      investment portfolio exceeds $3.1 billion. The
         Committee on Transportation and Infrastructure                   DOT’s Investment Review Board (IRB) and FAA’s
         and its Subcommittee on Aviation, OIG is review­                 Joint Resources Council (JRC) are executive
         ing FAA’s Systems Engineering 2020 contracts.                    governance boards responsible for approving
         This portfolio of contracts for support services                 and overseeing the annual investment of billions
         to implement NextGen has a maximum value of                      of dollars in major systems acquisitions. Our audit
         $7.1 billion. OIG is preparing its draft report on               objective is to assess the effectiveness of IRB’s
         whether FAA (1) plans and manages its SE-2020                    and JRC’s investment and acquisition review
         contract costs effectively, and (2) uses sound                   processes to ensure that FAA’s high-risk major
         contracting practices to select contractors and                  program acquisitions are effectively planned and
         oversee their performance.                                       implemented to meet mission needs and achieve
                                                                          desired cost, schedule, and performance goals.




                                                     Work Planned and In Progress      64


14039_049-066_Work Planned and in Progress.indd 64                                                                       11/21/11 8:48 AM
        PLANNED                                                           OST and DOT operating administrations have
                                                                          properly structured support service contracts
        FTA’s Oversight of Grantee’s ARRA                                 and maintain effective processes for awarding
        Contract Award and Administration                                 and administering these contracts.

        Practices
                                                                          DOT’s Contract Closeout Procedures
        FTA has awarded 1,072 ARRA-funded grants
        that support the construction or renovation of                    Contract closeout is an important phase of the
        over 850 transit facilities at a total cost of over               procurement process because it protects the
        $4 billion, the purchase of nearly 12,000 transit                 Department’s interests, minimizes administrative
        vehicles at a total cost of more than $2 billion,                 costs for both DOT and the contractor, and frees
        and preventative maintenance projects totaling                    excess funds for possible use elsewhere. We plan
        $700 million. We plan to conduct an audit to de­                  to conduct an audit to determine whether OST
        termine whether FTA’s oversight of transit agen­                  and DOT’s Operating Administrations are closing
        cies’ ARRA construction and renovation grants                     contracts efficiently and effectively, including de-
        is sufficient to ensure (1) that grantees’ contract               obligating excess funds on completed contracts.
        award and administration practices comply with
        laws, regulations, policies, and procedures; and
        (2) that grantees achieve the cost, schedule, and
        performance goals of their ARRA-funded infra­
        structure investments.


        DOT’s Use of Support Service
        Contracts
        Management support service contracts are
        widely used throughout DOT to support agency
        missions and staffing needs. These types of
        contracts require strong oversight and manage­
        ment to protect against cost growth and are the
        current focus of the Office of Federal Procure­
        ment Policy in efforts to reduce costs in the
        current budget climate. However, management
        support services contracts have also raised
        concerns regarding appropriate performance of
        government work by contractor employees. We
        plan to conduct an audit to determine whether



                                                     Semiannual Report to Congress      65


14039_049-066_Work Planned and in Progress.indd 65                                                                        11/21/11 8:48 AM
                                                     Work Planned and In Progress      66


14039_049-066_Work Planned and in Progress.indd 66                                           11/21/11 8:48 AM
                                                               Statistical Performance Data



          Summary of Performance
          Office of Inspector General
          April 1 - September 30, 2011
          (Dollars in Thousands)

          Reports Issued                                                                      109
          Recommendations Issued                                                              318
          Congressional Testimonies                                                             4
          Total Financial Recommendations                                                $73,510
             That Funds Be Better Used                                                        $426
             Questioned Costs                                                            $68,084
             Unsupported Costs                                                            $5,000
          Indictments                                                                          41
          Convictions                                                                          44




                                                     Semiannual Report to Congress      67


14039_067-090_Statistical Performance Data.indd 67                                                   11/21/11 8:48 AM
                                                     Statistical Performance Data      68


14039_067-090_Statistical Performance Data.indd 68                                           11/21/11 8:48 AM
          Audits
          Completed OIG Reports
	
          April 1 - September 30, 2011
          (Dollars in Thousands) *


                                                     Number of       Number of         Questioned    Unsupported     Funds to Be
                         Type of Review               Reports     Recommendations        Costs          Costs      Put to Better Use


          Internal Audits
          Performance Audits                            17                98                $493      $5,000            $426
          Financial Audits                              0                  0                 $0          $0              $0
          Attestation Engagements                       0                  0                 $0          $0              $0
          Other OIG Reports                             0                  0                 $0          $0              $0
          Total Internal Audit Reports                  17                98                $493      $5,000            $426
          Grant Audits
          Audits of Grantees under
          Single Audit Act                              92               220               $67,591       $0              $0
          Total Completed OIG Reports                  109               318               $68,084    $5,000            $426


          *The dollars shown are the amounts reported to management. The actual amounts may change
          during final resolution.


          Department of Transportation programs and operations are primarily carried out by Department
          personnel and recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General
          generally fall into three categories: internal audits of departmental programs and operations, audits
          of grant recipients, and other OIG reports.




                                                       Semiannual Report to Congress       69


14039_067-090_Statistical Performance Data.indd 69                                                                               11/21/11 8:48 AM
          OIG Reports With Recommendations That Questioned Costs
	
          April 1 - September 30, 2011
          (Dollars in Thousands)

                                                     Number of            Number of          Questioned   Unsupported
                                                      Reports          Recommendations         Costs         Costsa


          A.	 For which no management                   0                       0               $0            $0
              decision had been made
              by the start of the reporting
              period


          B.	 Which were issued during                  40                     57            $73,084       $5,000
              the reporting period


                  Totals (A+B)	                         40                     57            $73,084       $5,000


          C.	 For which a management                    36                     51            $72,173       $5,000
              decision was made during
              the reporting period


                  (i) dollar value of disallowed        31                     44            $60,013       $5,000
                  costsb


                  (ii) dollar value of costs not        6                       8            $12,164          $0
                  disallowedb


          D.	 For which no management                   5                       6              $911           $0
              decision had been made
              by the end of the reporting
              period

          a
              Unsupported costs are also included in the figures shown as questioned costs.
          b
              Includes reports and recommendations where costs were both allowed and disallowed.




                                                     Statistical Performance Data      70


14039_067-090_Statistical Performance Data.indd 70                                                                      11/21/11 8:48 AM
          OIG Reports With Recommendations That Funds Be Put to Better Use
	
          April 1 - September 30, 2011
          (Dollars in Thousands)

                                                     Number of            Number of
                                                      Reports          Recommendations        Funds to Be Put to Better Use


          A.	 For which no management                    1                      1                     $160,700
              decision had been made
              by the start of the reporting
              period


          B.	 Which were issued during                   1                      1                        $426
              the reporting period


                  Totals (A+B)	                          2                      2                     $161,126


          C.	 For which a management                     0                      0                          $0
              decision was made during
              the reporting period


                  (i) dollar value of                     0a                   0a                          $0
                  recommendations that were
                  agreed to by managementa


                  ii) dollar value of                    0a                    0a                          $0
                  recommendations that
                  were not agreed to by
                  managementa


          D.	 For which no management                    2                      2                     $161,126
              decision had been made
              by the end of the reporting
              period

          a
              Includes reports and recommendations where costs were both allowed and disallowed.




                                                     Semiannual Report to Congress      71


14039_067-090_Statistical Performance Data.indd 71                                                                            11/21/11 8:48 AM
          OIG Reports Recommending Changes for Safety, Economy or Efficiency
	
          April 1 - September 30, 2011

                                                                                                    Number of
                                                                             Number of Reports   Recommendations


          A.	 For which no management decision had been                                 21             55

              made by the start of the reporting period



          B.	 Which were issued during the reporting period                             86            260



                 Totals: (A+B)	                                                     107               315



          C.	 For which a management decision was made                                  84            222

              during the reporting period a



          D.	 For which no management decision had been                                 42             93

              made by the end of the reporting period a



          a
              Includes reports where management both made and did not make a decision on recommendations.




                                                     Statistical Performance Data       72



14039_067-090_Statistical Performance Data.indd 72                                                                 11/21/11 8:48 AM
          Management Decisions Regarding OIG Recommendations
	
          April 1 - September 30, 2011
          (Dollars in Thousands)

                                                     Number of       Number of              Questioned   Unsupported     Funds to Be
                                                      Reports     Recommendations             Costs        Costs a     Put to Better Use
          Unresolved as of 4/1/2011                     22                56                   $0            $0          $160,700


          Audits with Findings During                  100               318                $73,084       $5,000            $426
          Current Period


          Total to be Resolved                         122               374                $73,084       $5,000         $161,126
          Management Decisions:
          Audits Prior Period b                         12                29                   $0            $0              $0
          Audits Current Period b                       85               244                $72,173       $5,000             $0


          Total Resolved                                97               273                $72,173       $5,000             $0
          Aging of Unresolved Audits: c
          Less than 6 months old                        32                74                  $911             $0           $426
          6 months – 1 year                             6                 13                   $0              $0        $160,700
          1 year – 18 months                            1                  1                   $0              $0            $0
          18 months – 2 years                           1                  5                   $0              $0            $0
          Over 2 years old                              4                  8                   $0              $0            $0


          Unresolved as of 09/30/2011                   44               101                  $911           $0          $161,126

          a
            Unsupported costs are also included in the figures shown as questioned costs.
          b
            Includes reports and recommendations where costs were both allowed and disallowed.

          c
            Considered unresolved if management decisions have not been made on all report recommendations.





                                                        Semiannual Report to Congress       73


14039_067-090_Statistical Performance Data.indd 73                                                                                11/21/11 8:48 AM
        Office of Inspector General Reports
        April 1 - September 30, 2011

        DEPARTMENTWIDE

        Internal Audits: Performance/Attestation – 1 report

                Report                    Date                         Title                            Focus of Report/ Recommendations

         ZA-2011-119              05/25/2011	        Weakness in the Office of the Secre-      Significant weaknesses in OST's acquisition
                                                     tary's Acquisition Function Limit Its     functions limit its ability to carry out its respon-
                                                     Capacity to Support DOT's Mission         sibilities in support of DOT's mission. OST's
                                                                                               current acquisition organizational structure does
                                                                                               not support an effective acquisition function
                                                                                               for the Department. The acquisition function
                                                                                               lacks adequate and comprehensive policies and
                                                                                               procedures to effectively manage and perform
                                                                                               its acquisition tasks.


        Grant Audits: Audits of Grantee under Single Audit Act – 1 report


                Report                    Date                         Title                            Focus of Report/ Recommendations

         QC-2011-179              09/29/2011         Quality Control Review of the Single      We determined that the work was acceptable
                                                     Audit of the State of Idaho               with deficiencies. We identified a deficiency in
                                                                                               the audit documentation for suspension and
                                                                                               debarment testing and determined that the
                                                                                               State Auditor needed to expand its compliance
                                                                                               testing on the special tests and provisions
                                                                                               compliance requirement.




                                                                Statistical Performance Data      74


14039_067-090_Statistical Performance Data.indd 74                                                                                              11/21/11 8:48 AM
        FEDERAL AVIATION ADMINISTRATION

        Internal Audits: Performance/Attestation – 11 reports

                Report                    Date                          Title                           Focus of Report/ Recommendations

         FI-2011-073              04/06/2011         Cost in Support of the Kabul Afghani-       Costs in support of the Kabul Afghanistan
                                                     stan Airport Infrastructure Improvement Airport infrastructure and capacity building
                                                     and Capacity Building Project Are           project were supported and valid under the
                                                     Supported and Valid                         terms and conditions of that agreement.

         QC-2011-074              04/15/2011         Quality Control Review on The               Clifton Gunderson complied with applicable
                                                     Vulnerability Assessment of FAA’s           auditing standards and concluded that it was
                                                     Operational Air Traffic Control System      unable to gain access to FAA's operational ATC
                                                                                                 systems.

         ZA-2011-089              05/19/2011         FAA Must Strengthen Its Cost and            FAA needs to improve cost and price analysis
                                                     Price Analysis Processes to Prevent         and its tracking of noncompetitive contract
                                                     Overpaying for Noncompetitive               awards.
                                                     Contracts

         AV-2011-120              06/09/2011         FAA Needs to Strengthen Controls            FAA needs to ensure its internal control policies
                                                     Over the 2009 FAA/NATCA Collective          are sufficient to prevent cost escalations.
                                                     Bargaining Agreement


         AV-2011-131              06/15/2011         FAA’s Approach to SWIM Has Led to           SWIM is a key program in NextGen that, as
                                                     Cost and Schedule Uncertainty and           envisioned, will streamline data communica-
                                                     No Clear Path for Achieving NextGen         tions among all NextGen air traffic systems.
                                                     Goals                                       FAA is still in the early stages of developing
                                                                                                 SWIM, but costs have already increased while
                                                                                                 completion has been delayed.


         AV-2011-136              06/29/2011         FAA Needs to Strengthen Its Risk As-        FAA needs to improve its oversight of ODA
                                                     sessment and Oversight Approach for programs and the RBRT system. Under the
                                                     Organization Designation Authorization ODA program, FAA has significantly limited its
                                                     and Risk-Based Resource Targeting           role in approving individuals who perform work
                                                     Programs                                    on FAA’s behalf by delegating this approval to
                                                                                                 private companies.




                                                                 Semiannual Report to Congress       75


14039_067-090_Statistical Performance Data.indd 75                                                                                                11/21/11 8:48 AM
         ZA-2011-148              08/03/2011         FAA Policies and Plans Are Insufficient FAA's Acquisition Workforce Plan is not com-
                                                     to Ensure an Adequate and Effective       prehensive and has not sufficiently addressed
                                                     Acquisition Workforce                     gaps in hiring and developing its acquisitions
                                                                                               workforce. FAA needs to strengthen its acquisi-
                                                                                               tion workforce planning and implement the
                                                                                               programs, policies, and practices needed to
                                                                                               ensure an adequate workforce.
         AV-2011-149              08/04/2011         FAA Oversight Is Key for Contractor-      It is too early to fully assess the impact of FAA’s
                                                     Owned Air Traffic Control Systems That revised certification policy given that FAA is
                                                     Are Not Certified                         still in the initial stages of its experience with
                                                                                               overseeing non-certified systems. However,
                                                                                               FAA’s monitoring oversight approach to ADS-B
                                                                                               presents risks, particularly in regards to limited
                                                                                               data analysis resources and ensuring network
                                                                                               reliability.
         AV-2011-176              09/12/2011         FAA and Industry are Taking Action        FAA has generally ensured compliance with
                                                     to Address Pilot Fatigue, but More        current Federal flight, duty, and rest require-
                                                     Information on Pilot Commuting is         ments. However, FAA inspectors do not fully
                                                     Needed                                    review carriers’ self-disclosure data in instances
                                                                                               of non-compliance with flight crew rest require-
                                                                                               ments, and there are areas where carriers can
                                                                                               improve internal oversight controls.
         AV-2011-180              09/29/2011         More Rigorous Oversight Is Needed         FAA’s oversight did not prevent the City of
                                                     to Ensure Venice Municipal Airport        Venice from misallocating lease revenue and
                                                     Land Sales and Leases Are Used            parking lot improvement costs. FAA needs to
                                                     Appropriately                             improve its oversight of airport property sales
                                                                                               and Venice airport’s self-sustainability. Put
                                                                                               $426,329 in funds to better use and $493,070
                                                                                               questioned.
         FI-2011-181              09/29/2011         FAA Has Not Adequately Implemented Our audit objectives were to determine whether
                                                     Security Requirements for Its Automat- (1) FAA’s contract for ADS-B’s development
                                                     ic Dependent Surveillance-Broadcast       properly specifies the system’s security
                                                     System                                    requirements, and if the contractor has satisfied
                                                                                               them, including security risk identification and
                                                                                               mitigation, and (2) the contractor follows FAA’s
                                                                                               security architecture in its development of
                                                                                               ADS-B. This report contains sensitive security
                                                                                               information and is not publically available.



                                                                Statistical Performance Data      76


14039_067-090_Statistical Performance Data.indd 76                                                                                                  11/21/11 8:48 AM
        Grant Audits: Audits of Grantee Under Single Audit Act – 17 reports


                                                                                                                    Focus of Report/
                Report                  Date                                      Title
                                                                                                                   Recommendations
         SA-2011-076              04/28/2011 Puerto Rico Ports Authority (also listed under Federal            $18,044 questioned
                                                     Transit Administration)
         SA-2011-078              04/28/2011 State of Texas                                                    Improve grantee oversight
         SA-2011-083              04/29/2011 Airport Commission, City and County of San Francisco,             $276,736 questioned
                                                     California
         SA-2011-086              04/29/2011 State of Georgia (also listed under Federal Transit               $47,469 questioned
                                                     Administration)
         QC-2011-090              05/23/2011 Quality Control Review of Single Audit on the Port Authority We determined that the
                                                     of New Jersey and New York (also listed under Federal     work was acceptable and
                                                     Highway Administration and Federal Transit Administration) met the requirements
                                                                                                               of generally accepted
                                                                                                               Government auditing
                                                                                                               standards, the Act, and
                                                                                                               OMB Circular A-133.
         SA-2011-099              05/23/2011 Colorado River Indian Tribes, Arizona                             $25,413 questioned
         SA-2011-108              05/24/2011 Cochise County, Arizona                                           $41,744 questioned
         SA-2011-111              05/24/2011 County of Yolo, California                                        Improve grantee oversight
         SA-2011-125              06/13/2011 Tupelo Airport Authority, Mississippi                             Improve grantee oversight
         SA-2011-129              06/13/2011 State of Minnesota, (also listed under Federal Highway            $15,398,000 questioned
                                                     Administration and Federal Transit Administration)
         SA-2011-139              07/14/2011 City of Long Beach, California                                    $22,113 questioned
         SA-2011-145              07/14/2011 Puerto Rico Ports Authority (also listed under Federal            Improve grantee oversight
                                                     Transit Administration)
         SA-2011-159              08/18/2011 Federal States of Micronesia National Government                  $126,746 questioned

         SA-2011-170              09/08/2011 City and County of Denver, Colorado                               Improve grantee oversight

         SA-2011-173              09/08/2011 Metropolitan Washington Airports Authority (also listed           $79,804 questioned
                                                     under Federal Transit Administration)
         SA-2011-175              09/08/2011 Commonwealth Ports Authority, Northern Mariana Islands            Improve grantee oversight




                                                                  Semiannual Report to Congress      77


14039_067-090_Statistical Performance Data.indd 77                                                                                       11/21/11 8:48 AM
         QC-2011-178              09/29/2011 Quality Control Review of Single Audit on the Michigan                We determined that the
                                                     Department of Transportation (also listed under Federal       work was acceptable and
                                                     Highway Administration and Federal Transit Administration) met the requirements
                                                                                                                   of generally accepted
                                                                                                                   Government auditing
                                                                                                                   standards, the Act, and
                                                                                                                   OMB Circular A-133.

        FEDERAL HIGHWAY ADMINISTRATION

        Internal Audits: Performance/Attestation – 2 reports

                Report                    Date                           Title                                   Focus of Report/
                                                                                                                Recommendations
         MH-2011-146 07/15/2011                        FHWA’s Oversight of Federal-Aid and       OIG identified weaknesses in the actions FHWA
                                                       Recovery Act Projects Administered        has taken in addressing State LPA oversight
                                                       by Local Public Agencies Needs            weaknesses, $5 million of unsupported costs,
                                                       Strengthening                             and concluded that FHWA needs to improve its
                                                                                                 oversight.

         CR-2011-147              07/28/2011           Financial Analysis of Transportation-     OIG found that PPPs have several financial
                                                       Related Public Private Partnerships       disadvantages when compared to traditional
                                                                                                 public sector financing. However, certain pri-
                                                                                                 vate sector efficiencies can meaningfully offset
                                                                                                 PPPs’ cost disadvantages.


        Grant Audits: Audits of Grantee Under Single Audit Act – 45 reports


                Report                   Date                                    Title                                    Focus of Report/
                                                                                                                         Recommendations
         SA-2011-078               04/28/ 2011 State of Texas                                                     Improve grantee oversight
         SA-2011-079               04/28/2011 State of Colorado (also listed under Federal Transit                Improve grantee oversight
                                                     Administration)
         SA-2011-081               04/29/2011 State of Nevada                                                     Improve grantee oversight
         SA-2011-085               04/29/2011 Wyoming Department of Transportation (also listed under $88,958 questioned
                                                     Federal Transit Administration)
         SA-2011-087               04/29/2011 State of Kansas                                                     Improve grantee oversight
         SA-2011-088               04/29/2011 State of North Carolina                                             $91,160 questioned



                                                                  Statistical Performance Data      78


14039_067-090_Statistical Performance Data.indd 78                                                                                             11/21/11 8:48 AM
         QC-2011-090               05/23/2011 Quality Control Review of Single Audit on the Port Author- We determined that the work
                                                     ity of New Jersey and New York (also listed under Federal was acceptable, and met the
                                                     Aviation Administration and Federal Transit Administration) requirements of generally
                                                                                                                accepted Government auditing
                                                                                                                standards, the Act, and OMB
                                                                                                                Circular A-133.
         SA-2011-091               05/23/2011 Commonwealth of Kentucky                                          Improve grantee oversight
         SA-2011-092               05/23/2011 State of Washington (also listed under Federal Transit            $835,017 questioned
                                                     Administration)
         SA-2011-094               05/23/2011 State of California                                               Improve grantee oversight
         SA-2011-095               05/23/2011 State of New Hampshire                                            Improve grantee oversight
         SA-2011-096               05/23/2011 State of Louisiana                                                $15,312 questioned
         SA-2011-097               05/23/2011 Oglala Sioux Tribe, South Dakota                                  $14,679 questioned
         SA-2011-098               05/23/2011 State of Connecticut (also listed under Federal Transit           $7,133,989 questioned
                                                     Administration)
         SA-2011-100               05/23/2011 State of Florida                                                  Improve grantee oversight
         SA-2011-101               05/23/2011 State of Nebraska                                                 Improve grantee oversight
         SA-2011-102               05/23/2011 State of Oklahoma (also listed under Federal Transit              Improve grantee oversight
                                                     Administration)
         SA-2011-105               05/24/2011 The Port Authority of New York and New Jersey                     Improve grantee oversight
         SA-2011-106               05/24/2011 State of Delaware (also listed under Federal Transit              $7,470,914 questioned
                                                     Administration)
         SA-2011-110               05/24/2011 State of Hawaii, Department of Transportation, Highways           Improve grantee oversight
                                                     Division
         SA-2011-112               05/24/2011 The City of New York, New York                                    $31,884 questioned
         SA-2011-114               05/24/2011 State of Vermont (also listed under Federal Transit               Improve grantee oversight
                                                     Administration)
         SA-2011-116               05/24/2011 State of Mississippi                                              Improve grantee oversight
         SA-2011-117               05/24/2011 State of Wisconsin                                                Improve grantee oversight
         SA-2011-124               06/13/2011 State of Tennessee (also listed under Federal Transit             $554,902 questioned
                                                     Administration)
         SA-2011-126               06/13/2011 Ouzinkie Tribal Council, Alaska                                   $110,000 questioned
         SA-2011-128               06/13/2011 State of New Jersey                                               Improve grantee oversight
         SA-2011-129               06/13/2011 State of Minnesota, (also listed under Federal Aviation           $15,398,000 questioned
                                                     Administration and Federal Transit Administration)
         SA-2011-130               06/13/2011 State of Arizona                                                  $22,356 questioned
         SA-2011-132               06/16/2011 State of Rhode Island and Providence Plantations                  $60,267 questioned



                                                                Semiannual Report to Congress      79


14039_067-090_Statistical Performance Data.indd 79                                                                                           11/21/11 8:48 AM
         SA-2011-140               07/14/2011 South Carolina Department of Transportation (also listed            Improve grantee oversight
                                                     under Federal Transit Administration)
         SA-2011-141               07/14/2011 City of Inglewood, California                                       Improve grantee oversight
         SA-2011-144               07/14/2011 Puerto Rico Highways and Transportation Authority (also             Improve grantee oversight
                                                     listed under Federal Transit Administration)
         SA-2011-151               08/18/2011 Denver Union Station Project Authority, Colorado (also              Improve grantee oversight
                                                     listed under Federal Railroad Administration)
         SA-2011-152               08/18/2011 Three Affiliated Tribes, North Dakota                               $32,182 questioned
         SA-2011-153               08/18/2011 Rosebud Sioux Tribe, South Dakota                                   Improve grantee oversight
         SA-2011-154               08/18/2011 Government of Guam (also listed under Federal Transit               Improve grantee oversight
                                                     Administration)
         SA-2011-155               08/18/2011 State of North Dakota                                               Improve grantee oversight
         SA-2011-162               08/24/2011 Assiniboine and Sioux Tribes of the Fort Peck Indian                Improve grantee oversight
                                                     Reservation, Montana
         SA-2011-164               08/24/2011 Bois Forte of Chippewa, Minnesota                                   Improve grantee oversight
         SA-2011-165               08/24/2011 Government of the District of Columbia, Washington, DC              Improve grantee oversight
         SA-2011-166               08/24/2011 Shoshone-Paiute Tribes of the Duck Valley Indian Reser-             Improve grantee oversight
                                                     vation, Nevada
         SA-2011-169               09/08/2011 Michigan Department of Transportation (also listed under            $61,300 questioned
                                                     Federal Transit Administration)
         SA-2011-171               09/08/2011 Mille Lacs Band of Chippewa Indians, Minnesota                      Improve grantee oversight
         QC-2011-178              09/29/2011 Quality Control Review of Single Audit on the Michigan               We determined that the work
                                                     Department of Transportation (also listed under Federal      was acceptable and met the
                                                     Aviation Administration and Federal Transit Administration) requirements of generally
                                                                                                                  accepted Government auditing
                                                                                                                  standards, the Act, and OMB
                                                                                                                  Circular A-133.

        FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

        Internal Audits: Performance/Attestation – 1 report

                Report                    Date                           Title                                   Focus of Report/
                                                                                                                Recommendations
         MH-2011-161               08/19/2011          FMCSA Generally Complies With             FMCSA has not identified the specific process
                                                       Statutory Requirements, but Actions       it will use to comply with five requirements for
                                                       Are Needed Prior to Initiating Its NAFTA conducting 50 percent of the pre-authority
                                                       Cross-Border Trucking Pilot Program       safety audits and compliance reviews onsite in
                                                                                                 Mexico.


                                                                  Statistical Performance Data      80


14039_067-090_Statistical Performance Data.indd 80                                                                                             11/21/11 8:48 AM
        FEDERAL RAILROAD ADMINISTRATION

        Internal Audits: Performance/Attestation – 1 report

                Report                    Date                           Title                                    Focus of Report/
                                                                                                                 Recommendations
         CR-2011-177               09/22/2011	         Amtrak Faces Challenges Sustaining       We found that Amtrak used part of its ARRA
                                                       Increased Utilization at Its Heavy       funding to increase its heavy maintenance
                                                       Maintenance Facilities                   workforce and more fully utilize available
                                                                                                capacity at two of three heavy maintenance
                                                                                                facilities. However, when ARRA funding expires
                                                                                                in September 2011, Amtrak will no longer be
                                                                                                able to sustain this expanded workforce and
                                                                                                will have to lay off the majority, if not all, of
                                                                                                these employees and incur costs associated
                                                                                                with the layoffs.


        Grant Audits: Audits of Grantee under Single Audit Act – 2 reports

                Report                   Date                                    Title                                      Focus of Report/
                                                                                                                           Recommendations
         SA-2011-133               06/16/2011 National Railroad Passenger Corporation (AMTRAK),                     $11,368,701 questioned
                                                     Washington, DC
         SA-2011-151               08/18/2011 Denver Union Station Project Authority, Colorado (also                Improve grantee oversight
                                                     listed under Federal Highway Administration)

        FEDERAL TRANSIT ADMINISTRATION

        Internal Audits: Performance/Attestation – 1 report

                Report                    Date                           Title                                    Focus of Report/
                                                                                                                 Recommendations
         MH-2011-150 08/15/2011	                       New York City Fulton Street Transit      FTA has provided sufficient oversight of the
                                                       Center: FTA’s Sustained Focus on Key project, but FTA and MTA must maintain
                                                       Risk Areas Is Needed Until the Project vigilance in preventing schedule delays;
                                                       Is Completed                             maintaining the project’s budget; ensuring the
                                                                                                project remains within current committed fund-
                                                                                                ing amounts; and combating fraud, waste, and
                                                                                                abuse, with a particular focus on DBE fraud.




                                                                Semiannual Report to Congress       81


14039_067-090_Statistical Performance Data.indd 81                                                                                                  11/21/11 8:48 AM
        Grant Audits: Audits of Grantee Under Single Audit Act – 49 reports


                                                                                                                       Focus of Report/
                Report                  Date                                      Title
                                                                                                                      Recommendations
         SA-2011-075               04/28/2011 Yuma Metropolitan Planning Organization, Arizona                   $344,353 questioned
         SA-2011-076               04/28/2011 Puerto Rico Ports Authority (also listed under Federal             $18,044 questioned
                                                     Aviation Administration)
         SA-2011-077               04/28/2011 City of Lincoln, Nebraska                                          Improve grantee oversight
         SA-2011-079               04/28/2011 State of Colorado (also listed under Federal Highway               Improve grantee oversight
                                                     Administration)
         SA-2011-080               04/29/2011 Capital Metropolitan Transportation Authority, Texas               $370,435 questioned
         SA-2011-082               04/29/2011 Hillsborough Transit Authority, Florida                            $155,323 questioned
         SA-2011-084               04/29/2011 Ann Arbor Transportation Authority, Michigan                       Improve grantee oversight
         SA-2011-085               04/29/2011 Wyoming Department of Transportation (also listed under            $88,958 questioned
                                                     Federal Highway Administration)
         SA-2011-086               04/29/2011 State of Georgia (also listed under Federal Aviation Adminis- $47,469 questioned
                                                     tration)
         QC-2011-090               05/23/2011 Quality Control Review of Single Audit on the Port Authority We determined that the work
                                                     of New Jersey and New York (also listed under Federal       was acceptable and met the
                                                     Aviation Administration and Federal Highway Administration) requirements of generally ac-
                                                                                                                 cepted Government auditing
                                                                                                                 standards, the Act, and OMB
                                                                                                                 Circular A-133.
         SA-2011-092               05/23/2011 State of Washington (also listed under Federal Highway             $835,017 questioned
                                                     Administration)
         SA-2011-093              05/23/2011 City of Mesquite, Texas                                             Improve grantee oversight
         SA-2011-098               05/23/2011 State of Connecticut (also listed under Federal Highway            $7,133,989 questioned
                                                     Administration)
         SA-2011-102               05/23/2011 State of Oklahoma (also listed under Federal Highway               Improve grantee oversight
                                                     Administration)
         SA-2011-103               05/23/2011 City of Detroit, Michigan                                          Improve grantee oversight
         SA-2011-104               05/23/2011 Cape Cod Regional Transit Authority, Massachusetts                 Improve grantee oversight
         SA-2011-106               05/24/2011 State of Delaware (also listed under Federal Highway               $7,470,914 questioned
                                                     Administration)
         SA-2011-107               05/24/2011 City of Niles, Michigan                                            $31,640 questioned

         SA-2011-109               05/24/2011 City of Davis, California                                          Improve grantee oversight



                                                                  Statistical Performance Data      82


14039_067-090_Statistical Performance Data.indd 82                                                                                        11/21/11 8:48 AM
         SA-2011-113              05/24/2011 City of Tracy, California                                     $166,701 questioned

         SA-2011-114              05/24/2011 State of Vermont (also listed under Federal Highway Admin- Improve grantee oversight
                                                     istration)
         SA-2011-115              05/24/2011 Puerto Rico Metropolitan Bus Authority                        $19,939 questioned

         SA-2011-118              05/24/2011 Mississippi Coast Transportation Authority                    $50,000 questioned

         SA-2011-121              06/13/2011 Antelope Valley Transit Authority, California                 $222,216 questioned

         SA-2011-122              06/13/2011 Attleboro Redevelopment Authority, Massachusetts              $208,160 questioned

         SA-2011-123              06/13/2011 State of South Dakota                                         $23,546 questioned

         SA-2011-124              06/13/2011 State of Tennessee (also listed under Federal Highway         $554,902 questioned
                                                     Administration)
         SA-2011-127              06/13/2011 Lakeland Area Mass Transit District, Florida                  $618,588 questioned

         SA-2011-129              06/13/2011 State of Minnesota (also listed under Federal Aviation        $15,398,000 questioned
                                                     Administration and Federal Highway Administration)
         QC-2011-134             06/27/2011 Quality Control Review of Single Audit on Dallas Area Rapid We determined that the work
                                                     Transit                                               was acceptable and met the
                                                                                                           requirements of generally ac-
                                                                                                           cepted Government auditing
                                                                                                           standards, the Act, and OMB
                                                                                                           Circular A-133.
         SA-2011-137              07/14/2011 Chicago Transit Authority                                     Improve grantee oversight

         SA-2011-138              07/14/2011 Metropolitan Council of the Twin Cities Area, Minnesota       Improve grantee oversight

         SA-2011-140              07/14/2011 South Carolina Department of Transportation (also listed      Improve grantee oversight
                                                     under Federal Highway Administration)
         SA-2011-142              07/14/2011 Pace, Suburban Bus Division of the Regional Transportation Improve grantee oversight
                                                     Authority, Illinois
         SA-2011-143              07/14/2011 Metropolitan Transit Authority of Harris County, Texas        $20,771,450 questioned

         SA-2011-144              07/14/2011 Puerto Rico Highways and Transportation Authority (also       Improve grantee oversight
                                                     listed under Federal Highway Administration)
         SA-2011-145              07/14/2011 Puerto Rico Ports Authority (also listed under Federal        Improve grantee oversight
                                                     Aviation Administration)
         SA-2011-154              08/18/2011 Government of Guam (also listed under Federal Highway         Improve grantee oversight
                                                     Administration)
         SA-2011-156              08/18/2011 City of Fort Collins, Colorado                                $673,333 questioned



                                                                  Semiannual Report to Congress      83


14039_067-090_Statistical Performance Data.indd 83                                                                                  11/21/11 8:48 AM
         SA-2011-157              08/18/2011 The Chickasaw Nation, Oklahoma                                      Improve grantee oversight

         SA-2011-158              08/18/2011 City of Greeley, Colorado                                           Improve grantee oversight

         SA-2011-160              08/18/2011 Broward County, Florida                                             Improve grantee oversight

         SA-2011-163              08/24/2011 Borough of Pottstown, Pennsylvania                                  Improve grantee oversight

         QC-2011-167              08/24/2011 Quality Control Review of Single Audit on the New Jersey            We determined that the work
                                                     Transit Corporation                                         was acceptable and met the
                                                                                                                 requirements of generally ac-
                                                                                                                 cepted Government auditing
                                                                                                                 standards, the Act, and OMB
                                                                                                                 Circular A-133.
         SA-2011-169             09/08/2011 Michigan Department of Transportation (also listed under             $61,300 questioned
                                                     Federal Highway Administration)
         SA-2011-172             09/08/2011 City of Michigan City, Indiana                                       $7,510 questioned

         SA-2011-173             09/08/2011 Metropolitan Washington Airports Authority (also listed              $79,804 questioned
                                                     under Federal Aviation Administration)
         SA-2011-174             09/08/2011 Miami-Dade County Transit Department, Florida                        Improve grantee oversight

         QC-2011-178             09/29/2011 Quality Control Review of Single Audit on the Michigan               We determined that the work
                                                     Department of Transportation (also listed under Federal     was acceptable and met the
                                                     Aviation Administration and Federal Highway Administration) requirements of generally ac-
                                                                                                                 cepted Government auditing
                                                                                                                 standards, the Act, and OMB
                                                                                                                 Circular A-133.




                                                                  Statistical Performance Data      84


14039_067-090_Statistical Performance Data.indd 84                                                                                        11/21/11 8:48 AM
          Unresolved Recommendations Over 6 Months Old
	
          Cited in Semiannual Report for April 1, 2007 – September 30, 2007

                                               Title                         Report Number      Final Issue Date
          Amtrak’s Board of Directors Provides Leadership to                  CR-2007-074         9/14/2007
          the Corporation but Can Improve How It Carries Out
          Its Oversight Responsibilities


          Cited in Semiannual Report for April 1, 2008 – September 30, 2008

                                               Title                         Report Number      Final Issue Date
          Review of FAA’s Safety Oversight of Airlines and Use                AV-2008-057         6/30/2008
          of Regulatory Partnership Programs


          Cited in Semiannual Report for October 1, 2008 - March 31, 2009

                                               Title                         Report Number      Final Issue Date
          FAA’s Process for Reporting and Investigating                       AV-2009-045         3/24/2009
          Operational Errors


          Cited in Semiannual Report for April 1, 2009 - September 30, 2009

                                               Title                         Report Number      Final Issue Date
          Air Traffic Control: Potential Fatigue Factors                      AV-2009-065         6/29/2009


          Cited in Semiannual Report for October 1, 2009 - March 31, 2010

                                               Title                         Report Number      Final Issue Date
          FAA’s Oversight of American Airlines’ Maintenance                   AV-2010-042         2/16/2010
          Programs




                                                       Semiannual Report to Congress      85


14039_067-090_Statistical Performance Data.indd 85                                                                 11/21/11 8:48 AM
          Cited in Semiannual Report for April 1, 2010 - September 3, 2010

                                               Title                         Report Number     Final Issue Date
          Information Security and Privacy Controls Over the                   FI-2010-069       6/18/2010
          Airmen Medical Support Systems

          Cited in Semiannual Report for October 1, 2010 - March 31, 2011

                                               Title                         Report Number     Final Issue Date
          Town of Taos, New Mexico                                            SA-2011-068        3/23/2011

          FAA Did Not Ensure Revenue Was Maximized at                         AV-2011-057        2/28/2011

          Denver International Airport
          FAA Needs To Implement More Efficient                               AV-2011-025        12/10/2010

          Performance-Based Navigation Procedures and
          Clarify the Role of Third Parties
          Improper Payments Identified in FAA's Airport                        FI-2011-023       12/01/2010

          Improvement Program
          FAA Needs To Implement More Efficient Perfor-                       AV-2011-007        10/28/2010

          mance-Based Navigation Procedures and Clarify the
          Role of Third Parties
          FAA Faces Significant Risks in Implementing the                     AV-2011-002        10/12/2010

          Automatic Dependent Surveillance–Broadcast
          Program and Realizing Benefits




                                                       Statistical Performance Data      86


14039_067-090_Statistical Performance Data.indd 86                                                                11/21/11 8:48 AM
        Investigations
        Statistical Outcomes
        April 1 - September 30, 2011

                                                     Financial Impact
          Fines (and Special Assessments)                                                    $13,507,305
          Restitution                                                                         $1,769,404
          Recoveries                                                                         $31,049,908
          Cost Avoided                                                                               $0
          Total                                                                              $46,326,617


          Investigative Workload
          Current Investigations Inventory                                                          403
          Investigations Opened                                                                      95
          Investigations Closed                                                                      72


          Referrals
          Referred for Criminal Prosecution                                                          46
          Accepted for Criminal Prosecution                                                          28
          Declined for Criminal Prosecution                                                          19
          Referred for Civil Prosecution                                                              1
          Accepted for Civil Prosecution                                                              1
          Declined for Civil Prosecution                                                              3


          Judicial and Administrative Actions
          Indictments                                                                                41
          Convictions                                                                                44
          Years Incarceration                                                                        22
          Years Supervised Release                                                                  46.5
          Years Probation                                                                            58
          Hours Community Service                                                                  1,695



                                                         Semiannual Report to Congress       87


14039_067-090_Statistical Performance Data.indd 87                                                         11/21/11 8:48 AM
          Business Debarment                                                                    4
          Business Suspension                                                                   3
          Business Suspension Pending Debarment                                                 2
          Individual Debarment                                                                  6
          Individual Suspension                                                                 8
          Individual Suspension Pending Debarment                                               5


          Termination of Contract                                                               4
          Contract/Grant: Other                                                                 1
          Corrective Action Taken                                                               4
          Disallowance of DBE Credit                                                            3
          Cert/License/Permit Revoked/Terminated                                                2


          Employee: Counseling                                                                  1
          Employee: Resigned/Retired During Investigation                                       5
          Employee: Suspension                                                                  3
          Employee: Removal                                                                     3


          Substantiated - Enforcement Action Taken                                              1


          OIG Hotline Contacts
          Email                                                                              2,059
          Fax                                                                                  23
          Letters                                                                             120
          Web                                                                                 186
          Telephone                                                                           421
          Walk Ins                                                                              7
          Total                                                                              2,816




                                                     Statistical Performance Data      88


14039_067-090_Statistical Performance Data.indd 88                                                   11/21/11 8:48 AM
        Profile of All Pending Investigations by Case Type, as of September 30, 2011
	

                                                                            Types of Cases

                                        Number of      Aviation Procurement Employee     Grant          Workforce Motor Transportation
                                      Investigations    Safety     Fraud     Integrity   Fraud   Hazmat Protection Carrier  Safety     Othera
         DOT-wide                              1          0          0           0           0        0     1        0         0         0
         FAA                                 109         67          5           0           0       18     4        0         14        1
         FHWA                                137          0          1           0           0       127    5        0         1         3
         FMCSA                                58          0          5          29           0        0     0       17         7         0
         FRA                                   1          0          0           0           0        1     0        0         0         0
         FTA                                  32          0          0           0           0       31     0        0         1

         MARAD                                10          0          0           0           0        2     5        0         2         1
         NHTSA                                19          0          1           0           7        8     1        0         2         0
         NTSB                                  1          0          0           0           0        0     0        0         0         1
         OIG                                   2          0          0           0           0        0     0        0         1         1
         OST                                   3          0          0           0           1        0     1        0         1         0
         PHMSA                                25          0         25           0           0        0     0        0         0         0
         RITA                                  3          0          0           0           0        0     2        0         1         0
         STB                                   1          0          0           0           0        0     1        0         0         0
         SLSDC*                                1          0          0           0           0        0     0        0         1         0
         Totals                              403         67         37          29           8       187    20      17         31        7
         Percent of Total                   100%        17%         9%          7%        2%         46%   5%       4%         8%        2%

        a
          Includes computer intrusion cases.

        Within the Office of Investigations, Special Investigations staff investigate and report on whistleblower
        disclosures of violations of law, rule, or regulation; gross mismanagement; gross waste of funds; abuses of
        authority; and/or substantial and specific dangers to public health or safety, which the U.S. Office of Special
        Counsel (OSC) referred to the Secretary of Transportation. OIG’s reports of investigation, along with any
        necessary agency corrective actions, are transmitted by the Secretary to OSC. Upon receipt, OSC reviews
        OIG’s findings and the agency’s corrective actions to determine whether they are reasonable and meet
        statutory requirements. Our current inventory of OSC whistleblower disclosure complaints consists of seven
        investigations, which are included in the above chart. All seven of those investigations are in the area of
        Aviation Safety.

        * Saint Lawrence Seaway Development Corporation




                                                               Semiannual Report to Congress         89


14039_067-090_Statistical Performance Data.indd 89                                                                                        11/21/11 8:48 AM
                                                     Statistical Performance Data      90


14039_067-090_Statistical Performance Data.indd 90                                           11/21/11 8:48 AM
                                                                        Peer Review Activity


        OIG was not the subject of a Council of the  The final report was released July 15, 2011.
        Inspectors General on Integrity and Efficiency
                                                     We reported that the system of internal safe-
        (CIGIE) peer review during this reporting    guards and management procedures for EPA
        period. For reports of the latest peer reviews
                                                     OIG’s investigative functions were in com-
        conducted on our office, go to http://www.   pliance with quality standards established
        oig.dot.gov/peer-review.                     by CIGIE and Attorney General Guidelines.
                                                     These safeguards and procedures provide
        During this period, OIG conducted a CIGIE reasonable assurance that EPA OIG conforms
        peer review at the Environmental Protection to professional standards in the conduct of its
        Agency (EPA) OIG’s Investigative Operations. investigations.




                                        Semiannual Report to Congress      91


14039_091-092_Peer Review.indd 91                                                              11/21/11 8:49 AM
                                    Peer Review Activity    92


14039_091-092_Peer Review.indd 92                                 11/21/11 8:49 AM
                                                                   Mission and Organization


        The Office of Inspector General for the Department of Transportation was created by Congress through
        the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

          •     To conduct or supervise objective audits and investigations of the Department’s programs and
                operations;
          •     To promote economy, effectiveness, and efficiency within the Department;
          •     To prevent and detect fraud, waste, and abuse in the Department’s programs;
          •     To review existing and proposed laws or regulations affecting the Department and make recom-
                mendations about them;
          •     To keep the Secretary of Transportation and Congress fully informed about problems in depart-
                mental programs and operations.

        The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
        of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
        efficient, and effective transportation system.


        OIG’s audits and investigations offices and three support offices work together to fulfill its mission:


          •	 The	 Office	 of	 the	 Principal	 Assistant	 Inspector	 General	 for	 Auditing	 and	 Evaluation super-
             vises and conducts all audit activities related to DOT programs and operations through its five
             suboffices, which are divided according to specific DOT program areas: Aviation and Special
             Programs; Highway and Transit; Rail, Maritime, and Economic Analysis; Financial and Information
             Technology; and Acquisition and Procurement. Audit staff are located in headquarters and field
             offices across the country.

          •	 The	 Office	 of	 the	 Principal	 Assistant	 Inspector	 General	 for	 Investigations supervises and
             conducts OIG investigative activities related to DOT programs and operations through its head-
             quarters and seven major regional offices. The headquarters office conducts nationwide special
             investigations and analyses as well as manages the OIG Hotline Complaint Center and activities
             generated by complaints.

          •	 The	 Office	 of	 the	 Assistant	 Inspector	 General	 for	 Legal,	 Legislative,	 and	 External	 Affairs
             provides a full-range of professional legal services and advice, facilitates communications with
             Congress, and manages public and external affairs.




                                                 Semiannual Report to Congress      93


14039_093-095_Mission and Organization.indd 93                                                                 11/21/11 8:51 AM
          •	 The	 Office	 of	 the	 Assistant	 Inspector	 General	 for	 Administration is divided into four subof-
             fices: the Office of Procurement and Administrative Services, the Office of Budget and Financial
             Management, the Office of Human Resources, and the Office of Information Technology Manage-
             ment.

          •	 The	Office	of	Quality	Assurance	Reviews	and	Internal	Affairs, under the direction of the Deputy
             Inspector General, ensures that internal operations and functions are performed objectively and in
             an efficient and effective manner.




                                                 Mission and Organization      94


14039_093-095_Mission and Organization.indd 94                                                               11/21/11 8:51 AM
                                                                       Inspector General




                                                                            Deputy
                                                                       Inspector General




                                      Quality Assurance
                                     Reviews and Internal                                                  Chief of Staff
                                            Affairs




                                                            Principal Assistant            Assistant
     Principal Assistant                                                                                                Assistant
                                                            Inspector General          Inspector General
     Inspector General                                                                                             Inspector General
                                                             for Auditing and        for Legal, Legislative,
     for Investigations                                                                                            for Administration
                                                                Evaluation            and External Affairs




                                                                                       Assistant              Assistant
                                          Assistant              Assistant                                                          Assistant
     Deputy Assistant                                                             Inspector General      Inspector General
                                     Inspector General      Inspector General                                                  Inspector General
    Inspector General                                                             for Rail, Maritime,     for Financial and
                                      for Aviation and       for Highway and                                                     For Acquisition
    for Investigations                                                              and Economic             Information
                                     Special Programs             Transit                                                      and Procurement
                                                                                       Analysis              Technology




                                      Deputy Assistant       Deputy Assistant
                                     Inspector General      Inspector General
                                      for Aviation and       for Highway and
                                     Special Programs             Transit




                                                            Semiannual Report to Congress       95


14039_093-095_Mission and Organization.indd 95                                                                                          11/21/11 8:51 AM
                                                                                     Contacts


                     Inspector General
                     Calvin L. Scovel III ……………………………………………………………… (202) 366-1959
                     Deputy Inspector General
                     Ann Calvaresi-Barr ……………………………………………………………… (202) 366-6767
                     Principal Assistant Inspector General for Investigations
                     Timothy Barry …………………………………………………………………… (202) 366-1967
                     Principal Assistant Inspector General for Auditing and Evaluation
                     Lou Dixon………………………………………………………………………… (202) 366-1427
                     Assistant Inspector General for Legal, Legislative, and External Affairs
                     Brian A. Dettelbach …………………………………………………………… (202) 366-8751
                     Assistant Inspector General for Administration
                     Susan Dailey …………………………………………………………………… (202) 366-1748
                     Chief of Staff
                     Madeline Chulumovich ………………………………………………………… (202) 366-6767
                     Deputy Assistant Inspector General for Investigations
                     Robert Westbrooks …………………………………………………………… (202) 366-1972
                     Assistant Inspector General for Aviation and Special Programs Audits
                     Jeffrey Guzzetti ………………………………………………………………… (202) 366-0500
                     Deputy Assistant Inspector General for Aviation and Special Programs Audits
                     Matt Hampton …………………………………………………………………… (202) 366-1987
                     Assistant Inspector General for Highway and Transit Audits
                     Joe Comé ……………………………………………………………………… (202) 366-5630
                     Deputy Assistant Inspector General for Highway and Transit Audits
                     Thomas Yatsco ………………………………………………………………… (202) 366-5630
                     Assistant Inspector General for Rail, Maritime, and Economic Analysis
                     Mitchell Behm …………………………………………………………………… (202) 366-9970
                     Assistant Inspector General for Financial and Information Technology Audits
                     Louis King ……………………………………………………………………… (202) 366-1407
                     Assistant Inspector General for Acquisition and Procurement Audits
                     Mary Kay Langan-Feirson……………………………………………………… (202) 366-5225




                                                   Contacts      96


14039_096_Contacts.indd 96                                                                         11/21/11 8:51 AM
   U.S. Department of Transportation
       Office of Inspector General
	
      1200 New Jersey Avenue, SE
	
         Washington, DC 20590
	


Hotline to report fraud, waste, and abuse:
          Phone: 800-424-9071
	
       Email: hotline@oig.dot.gov
	
  OIG Website: http://www.oig.dot.gov
	
